Audit Report




OIG-11-023
INFORMATION TECHNOLOGY: The Department of the Treasury
Federal Information Security Management Act Fiscal Year 2010
Audit

November 12, 2010


Office of
Inspector General
Department of the Treasury

This report has been reissued to correct the report number on the
cover page from OIG-10-023 to OIG-11-023. Additionally, at the
request of the Treasury Inspector General for Tax Administration,
certain information on page 16 of their report is redacted pursuant
to 5 U.S.C. §552(b)(2).
                                          DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220

                                            November 12, 2010
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR DANIEL TANGHERLINI
                           ASSISTANT SECRETARY OF THE TREASURY FOR
                             MANAGEMENT AND CHIEF FINANCIAL OFFICER

                                     DIANE LITMAN
                                     ACTING DEPUTY ASSISTANT SECRETARY OF
                                        INFORMATION SYSTEMS AND CHIEF
                                        INFORMATION OFFICER

            FROM:                    Marla A. Freedman /s/
                                     Assistant Inspector General for Audit

            SUBJECT:                 The Department of the Treasury Federal Information
                                     Security Management Act Fiscal Year 2010 Audit

            We are pleased to transmit the following reports:

                  •   The Department of the Treasury Federal Information Security
                      Management Act Fiscal Year 2010 Performance Audit, November 10,
                      2010
                  •   Treasury Inspector General for Tax Administration – Federal
                      Information Security Management Act Report for Fiscal Year 2010
                      (Audit # 2011-20-003), November 10, 2010

            The Federal Information Security Management Act (FISMA) 1 requires an
            annual independent evaluation of the Department of the Treasury’s
            information security program and practices. To meet FISMA requirements,
            we contracted with KPMG LLP, an independent certified public accounting
            firm, to perform the FISMA evaluation of Treasury’s non-Internal Revenue
            Service (IRS) unclassified systems. KPMG’s work was largely driven by the
            Office of Management and Budget’s (OMB) FISMA 2010 Reporting
            Guidelines. Attachment 1 contains KPMG’s report and The Department of
            the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for
            Inspectors General (Appendix II of KPMG’s report). The response
            incorporates our response as well as that of the Treasury Inspector General


            1
                44 U.S.C. §§ 3541–3549.
Page 2


for Tax Administration (TIGTA). Attachment 2 contains TIGTA’s stand alone
evaluation of FISMA compliance for IRS systems.2

Based on the results of KPMG’s audit, those reported by TIGTA, and a
related report by the Government Accountability Office (GAO),3 we
determined that Treasury’s information security program is in place and
generally consistent with FISMA, but improvements are needed.

The KPMG audit of Treasury’s unclassified systems (except for those of IRS)
indicated that additional steps are required to ensure that Treasury’s
information security risk management program and practices fully comply
with applicable National Institute of Standards and Technology standards and
guidelines and FISMA requirements. Specifically, KPMG reported that:

    1. Logical and physical account management activities were not

       consistently performed 

    2. Outsourcing the information system security officer role created an
       information technology governance concern at Financial Management
       System
    3. Plan of actions and milestones were not updated timely and 

       maintained at Financial Management System and Office of the 

       Comptroller of the Currency 

    4. Security incidents were not reported timely at Bureau of the Public
       Debt and Alcohol and Tobacco Tax and Trade Bureau
    5. Reviews of audit logs were not documented at Bureau of Engraving
       and Printing
    6. Electronic media destruction process at Financial Crimes Enforcement
       Network was not fully compliant with its internal policies
    7. Password settings were not properly configured to lockout for a

       Bureau of the Public Debt system 


TIGTA reported that IRS was also generally consistent with FISMA
requirements. However, TIGTA noted that the IRS information security
program was not fully effective as a result of the conditions identified in
configuration management, security training, plans of action and milestones,
identity and access management, continuous monitoring management,
contingency planning, and contractor systems.

2
  We did not review the work performed by TIGTA to evaluate the information security
program and practices of IRS. Our overall conclusions, insofar as they relate to IRS, are
based solely on TIGTA’s report (attachment 2). We did, however, coordinate with TIGTA on
the scope and methodology, including sample selection, of our respective engagements.

3
 FINANCIAL AUDIT: IRS’s Fiscal Years 2010 and 2009 Financial Statements (GAO-11-142,
dated November 2010)
Page 3



In addition, GAO reported a continuing material weakness in IRS’s internal
control over information security that resulted in IRS’s inability to rely on the
controls embedded in its automated financial management systems to
provide reasonable assurance that (1) the financial statements are fairly
stated in accordance with U.S. generally accepted accounting principles; (2)
financial information management relies on to support day-to-day decision-
making is current, complete, and accurate; and (3) proprietary information
processed by these automated systems is appropriately safeguarded. The
new deficiencies identified during fiscal year 2010 and the unresolved
deficiencies from prior audits continue to jeopardize the confidentiality,
integrity, and availability of information processed by IRS’s key systems, and
increased the risk of material misstatement of financial reporting.

If you have any questions or require further information, you may contact me
at (202) 927-5400 or Joel A. Grover, Deputy Assistant Inspector General for
Financial Management and Information Technology Audit, at (202) 927-
5768.

Attachments

cc: 	Edward A. Roback
     Associate Chief Information Officer
     Cyber Security
            ATTACHMENT 1

       The Department of the Treasury 

Federal Information Security Management Act 

    Fiscal Year 2010 Performance Audit, 

             November 10, 2010 

The Department of the Treasury
Federal Information Security Management Act
Fiscal Year 2010 Performance Audit




November 10, 2010




KPMG LLP
2001 M Street, NW
Washington, DC 20036
                              The Department of the Treasury 

      Federal Information Security Management Act Fiscal Year 2010 Performance Audit 


                                                                Table of Contents 


FISMA Performance Audit Report
BACKGROUND .......................................................................................................................................... 3
 
  Federal Information Security Management Act (FISMA) ........................................................................ 3
 
  Federal Standards and Guidelines............................................................................................................. 3
 
  Treasury Bureaus/Offices (Bureaus)......................................................................................................... 4
 
  Treasury Information Security Management Program.............................................................................. 5
 
OBJECTIVE, SCOPE, & METHODOLOGY .............................................................................................. 8
 
OVERALL AUDIT RESULTS .................................................................................................................. 11
 
FINDINGS .................................................................................................................................................. 13
 
  1.	  Logical and Physical Account Management Activities Were Not Consistently Performed ........... 13
 
  2.	  Outsourcing the ISSO Role Created an IT Governance Concern at FMS ...................................... 15
 
  3.	  POA&Ms Were Not Updated Timely and Maintained at FMS and OCC ...................................... 16
 
  4.	  Security Incidents Were Not Reported Timely at BPD and TTB ................................................... 17
 
  5.	  Reviews of Audit Logs Were Not Documented at BEP ................................................................. 18
 
  6.	  Electronic Media Destruction Process at FinCEN Was Not Fully Compliant with Its Internal 

       Policies ............................................................................................................................................ 18
 
  7.  Password Settings Were Not Properly Configured to Lockout for a BPD System ......................... 19
 
MANAGEMENT RESPONSE TO DRAFT REPORT .............................................................................. 20
 

Appendices
APPENDIX I – STATUS OF PRIOR YEAR FINDINGS ......................................................................... 32
 
APPENDIX II – THE DEPARTMENT OF THE TREASURY’S CONSOLIDATED RESPONSE TO 

OMB’S FISMA 2010 QUESTIONS FOR INSPECTORS GENERAL ..................................................... 35
 
APPENDIX III – APPROACH TO SELECTION OF SUBSET OF SYSTEMS....................................... 49
 
APPENDIX IV – SELECTED SECURITY CONTROL CLASSES AND FAMILIES ............................ 51
 
APPENDIX V – LIST OF ACRONYMS ................................................................................................... 56
 
                                  KPMG LLP
                                  2001 M Street, NW
                                  Washington, DC 20036-3389




Honorable Eric Thorson
Inspector General, Department of the Treasury
1500 Pennsylvania Avenue, N.W.
Room 4436
Washington, DC 20220


Re: The Department of the Treasury Federal Information Security Management Act Fiscal Year
    2010 Performance Audit

Dear Mr. Thorson:

This report presents the results of our independent evaluation of the Department of the Treasury’s
information security program and practices. The Federal Information Security Management Act of 2002
(FISMA) requires federal agencies, including the Department of the Treasury, to have an annual
independent evaluation performed of their information security programs and practices and to report the
results of the evaluations to the Office of Management and Budget (OMB). FISMA requires that the
independent evaluation be performed by the agency Inspector General (IG) or an independent external
auditor as determined by the IG. The Department of the Treasury Office of Inspector General (OIG)
contracted with KPMG LLP (KPMG) to conduct this independent evaluation (referred to herein as a
“performance audit”).

We conducted our performance audit in accordance with generally accepted government auditing
standards (GAGAS) issued by the Comptroller General of the United States (U.S.). Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objective.

The objective of the performance audit was to determine the effectiveness of the Department of the
Treasury’s information security program and practices for its unclassified systems, including the
Department of the Treasury’s compliance with FISMA and related information security policies,
procedures, standards, and guidelines. We based our work, in part, on an assessment of fifteen (15)
information systems across thirteen (13) Treasury components. The scope of our work did not include the
Internal Revenue Service (IRS), as the component was audited by the Treasury Inspector General for Tax
Administration (TIGTA). Additional details regarding the scope of our performance audit are included in
the Objective, Scope, and Methodology section of this report.

Based on our audit work, we concluded that the U.S. Department of the Treasury’s information security
program for its non-IRS bureaus was generally consistent with the FISMA legislation, OMB information
security requirements, and related information security standards published by the National Institute of




                                   KPMG LLP is a Delaware limited liability partnership,
                                   the U.S. member firm of KPMG International Cooperative
                                   (“KPMG International”), a Swiss entity.
Standards and Technology (NIST). While the information security program was generally consistent with
the FISMA legislation, the program was not fully effective as reflected in the findings identified in the
following areas:

       1.	 Logical and Physical Account Management Activities Were Not Consistently Performed
       2.	 Outsourcing the Information System Security Officer (ISSO) Role Created an Information
           Technology (IT) Governance Concern at Financial Management System (FMS)
       3.	 Plan of Action and Milestones (POA&Ms) Were Not Updated Timely and Maintained at FMS
           and Office of the Comptroller of the Currency (OCC)
       4.	 Security Incidents Were Not Reported Timely at Bureau of the Public Debt (BPD) and
           Alcohol and Tobacco Tax and Trade Bureau (TTB)
       5.	 Reviews of Audit Logs Were Not Documented at Bureau of Engraving and Printing (BEP)
       6.	 Electronic Media Destruction Process at Financial Crimes Enforcement Network (FinCEN)
           Was Not Fully Compliant with Its Internal Policies
       7.	 Password Settings Were Not Properly Configured to Lockout for a BPD System

We have made 29 recommendations related to these control deficiencies that, if addressed by
management, will strengthen the respective bureaus, offices, and the Department’s information security
program.

This performance audit did not constitute an audit of financial statements in accordance with GAGAS.
We were not engaged to, and did not, render an opinion on the Department of the Treasury’s internal
controls over financial reporting or over financial management systems (for purposes of OMB Circular
No. A-127, Financial Management Systems–Revised, dated January 9, 2009). We tested controls that
were implemented as of June 30, 2010. We caution that projecting the results of our audit to future
periods is subject to the risks that controls may become inadequate because of changes in conditions or
because compliance with controls may deteriorate.

Appendix I, Status of Prior Year Findings, summarizes the U.S. Department of the Treasury’s progress in
addressing prior year recommendations. Appendix II, provides The Department of the Treasury’s
Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General. Appendix III,
Approach to Selection of Subset of Systems, describes how we selected systems for review. Appendix IV,
Selected Security Control Classes and Families, describes the selected NIST Special Publication 800-53
security controls reviewed for each of the selected systems, and Appendix V contains a list of acronyms
used in this report.

Sincerely,




November 10, 2010




                                                                                                    Page 2
The Department of the Treasury FISMA Performance Audit – 2010
BACKGROUND 

Federal Information Security Management Act (FISMA)


Title III of the E-Government Act of 2002 (the Act), commonly referred to as the Federal Information
Security Management Act (FISMA), focuses on improving oversight of federal information security
programs and facilitating progress in correcting agency information security weaknesses. FISMA requires
federal agencies to develop, document, and implement an agency-wide information security program that
provides security for the information and information systems that support the operations and assets of the
agency, including those provided or managed by another agency, contractor, or other source. The Act
assigns specific responsibilities to agency heads and Inspectors General (IGs) in complying with
requirements of FISMA. The Act is supported by Office of Management and Budget (OMB), agency
security policy, and risk-based standards and guidelines published by National Institute of Standards and
Technology (NIST) related to information security practices.

Under FISMA, agency heads are responsible for providing information security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems. Agency heads
are also responsible for complying with the requirements of FISMA and related OMB policies and NIST
procedures, standards, and guidelines. FISMA directs federal agencies to report annually to the OMB
Director, the Comptroller General, and selected congressional committees on the adequacy and
effectiveness of agency information security policies, procedures, and practices and compliance with
FISMA. In addition, FISMA requires agencies to have an annual independent evaluation of their
information security programs and practices performed by the agency IG or an independent external
auditor as determined by the IG.

Federal Standards and Guidelines

OMB has directed agencies to use NIST Federal Information Processing Standards (FIPS) Publication
199, Security Categorization of Federal Information and Information Systems, to apply a security
categorization to an information system. This rating is assigned to an information system based on the
agency’s assessment of the system’s confidentiality, integrity, and availability. NIST FIPS Publication
199 and NIST Special Publication 800-60 Revision 1, Guide to Mapping Types of Information and
Information Systems to Security Categories (2 Volumes), outline a framework that requires agencies to
evaluate and categorize the potential magnitude of harm that a breach of security associated with specific
information and information systems could have on agency operations and assets. The framework
provides agencies with standards and guidance on how agencies should group information for evaluation,
evaluate and categorize information and information systems, and document the process.

OMB has further directed that agencies use NIST FIPS Publication 200, Minimum Security Requirements
for Federal Information and Information Systems, in order to apply a security controls baseline to the
information system based on the FIPS Publication 199 categorization. FIPS Publication 200 specifies the
minimum security requirements for the information system and provides a risk-based process for
determining the minimum security controls necessary for the information system. FIPS Publication 200
specifies seventeen (17) controls families that must be addressed when implementing security controls to
adequately mitigate risk to an acceptable level.

NIST Special Publication 800-53 Revision 2, Recommended Security Controls for Federal Information
Systems, further defines the seventeen (17) controls families outlined in FIPS Publication 200 by defining



                                                                                                     Page 3
The Department of the Treasury FISMA Performance Audit – 2010
the minimum set of security controls for non-national security systems of all Federal agencies within each
of the controls families. NIST Special Publication 800-53 Revision 2 groups the seventeen (17) controls
families into three (3) control classes (management, operational, and technical security controls).
Management controls are the safeguards or countermeasures, related to an information system, that focus
on the management of risk and system security. Operational controls are the safeguards and
countermeasures for an information system that are primarily implemented and executed by individuals
(as opposed to information systems). Technical controls are the safeguards or countermeasures for an
information system that are primarily implemented and executed by the system through mechanisms
contained in the hardware, software, or firmware components of the system. Table 1 details the security
control classes and families.

                        Table 1: Selected Security Control Classes and Families
              Security Control Class                   Security Control Family
                                         Risk Assessment
                                         Planning
            Management                   System and Services Acquisition
                                         Certification, Accreditation, and Security
                                         Assessments
                                         Physical and Environmental Protection
                                         Contingency Planning
                                         Configuration Management
            Operational
                                         Maintenance
                                         Media Protection
                                         Identification and Authentication
                                         Access Control
            Technical                    Audit and Accountability
                                         System and Communications Protection
            Source: NIST Security Standards (see Appendix IV)


Treasury Bureaus/Offices (Bureaus)

Treasury is comprised of fourteen (14) operating bureaus, including:

1.	 Alcohol and Tobacco Tax and Trade Bureau (TTB) – Responsible for enforcing and administering
    laws covering the production, use, and distribution of alcohol and tobacco products. TTB also collects
    excise taxes for firearms and ammunition.
2.	 Bureau of Engraving and Printing (BEP) – Designs and manufactures United States (U.S.)
    currency (paper), securities, and other official certificates and awards.
3.	 Bureau of the Public Debt (BPD) – Borrows the money needed to operate the Federal government.
    It administers the public debt by issuing and servicing U.S. Treasury marketable, savings, and special
    securities.
4.	 Community Development Financial Institution (CDFI) Fund – Created to expand the availability
    of credit, investment capital, and financial services in distressed urban and rural communities.
5.	 Departmental Offices (DO) – Primarily responsible for policy formulation. The DO is composed of
    divisions headed by Assistant Secretaries, some of whom report to Under Secretaries.




                                                                                                    Page 4
The Department of the Treasury FISMA Performance Audit – 2010
6.	 Financial Crimes Enforcement Network (FinCEN) – Supports law enforcement investigative
    efforts and fosters interagency and global cooperation against domestic and international financial
    crimes. It also provides U.S. policy makers with strategic analyses of domestic and worldwide trends
    and patterns.
7.	 Financial Management Service (FMS) – Receives and disburses all public monies, maintains
    government accounts, and prepares daily and monthly reports on the status of government finances.
8.	 Internal Revenue Service (IRS) – Responsible for determining, assessing, and collecting internal
    revenue in the U.S.
9.	 Office of the Comptroller of the Currency (OCC) – Charters, regulates, and supervises national
    banks to ensure a safe, sound, and competitive banking system that supports the citizens,
    communities, and economy of the United States.
10. Office of the Inspector General (OIG) – Conducts and supervises audits and investigations of
    Treasury programs and operations. The OIG also keeps the Secretary and the Congress fully and
    currently informed about problems, abuses, and deficiencies in Treasury programs and operations.
11. Office of Thrift Supervision (OTS) – The primary regulator of all Federal and many state-chartered
    thrift institutions, which include savings banks and savings and loan associations.
12. United States Mint (Mint) – Designs and manufactures domestic, bullion, and foreign coins as well
    as commemorative medals and other numismatic items. The Mint also distributes U.S. coins to the
    Federal Reserve banks as well as maintains physical custody and protection of our nation’s silver and
    gold assets.
13. Special Inspector General for the Troubled Asset Relief Program (SIGTARP) – Has the
    responsibility to conduct, supervise and coordinate audits and investigations of the purchase,
    management, and sale of assets under the Troubled Asset Relief Program (TARP). SIGTARP’s goal
    is to promote economic stability by assiduously protecting the interests of those who fund the TARP
    programs (i.e., the American taxpayers).
14. Treasury Inspector General for Tax Administration (TIGTA) – Conducts and supervises audits
    and investigations of IRS programs and operations. The TIGTA also keeps the Secretary and the
    Congress fully and currently informed about problems, abuses, and deficiencies in IRS programs and
    operations.

The scope of KPMG’s 2010 FISMA audit did not include the IRS.

Treasury Information Security Management Program

Treasury Office of the Chief Information Officer (OCIO)

The Treasury Chief Information Officer (TCIO) is responsible for providing Treasury-wide leadership
and direction for all areas of information and technology management, as well as the oversight of a
number of information technology (IT) programs. Among these programs is Cyber Security, which has
responsibility for the implementation and management of Treasury-wide IT security programs and
practices. Through its mission, the Treasury Office of the Chief Information Officer (OCIO) Cyber
Security Program develops and implements IT security policies and provides policy compliance oversight
for both unclassified and classified systems managed by each of Treasury’s bureaus. The OCIO, Cyber
Security Program’s mission focuses on the following areas:

1.	 Cyber Security Policy and Program Performance Measurement – Manages and coordinates the
    Departmental cyber security policy for sensitive (unclassified) systems throughout the Department,
    assuring these policies and requirements are updated to address today’s threat environment, and
    conducts program performance, progress monitoring and analysis.


                                                                                                    Page 5
The Department of the Treasury FISMA Performance Audit – 2010
2.	 Cyber Security FISMA Performance and Technical Review – Provides assistance, conducts
    reviews, and tracks metrics to enhance security performance, thereby strengthening the overall cyber
    security posture of the Department.
3.	 Vulnerability Analysis, Configuration, and Planning – Analyzes current and emerging
    technologies and directs the Department’s strategies and plans to mitigate cyber security risks from
    configuration and other vulnerabilities.
4.	 Cyber Critical Infrastructure Protection (CIP) – Implements cyber-related requirements of
    Homeland Security Presidential Directive No. 7, Critical Infrastructure Identification, Prioritization,
    and Protection, focusing on the protection of Department-owned cyber assets.
5.	 Treasury Computer Security Incident Response Capability (TCSIRC) – Leads the TCSIRC and
    provides Department-wide policy to the operation of each bureau’s Computer Security Incident
    Response Center (CSIRCs). It also facilitates incident reporting with external reporting entities and
    conducts performance monitoring of CSIRCs within the Department.
6.	 National Security Systems – Manages and coordinates the Department-wide program to address the
    cyber security requirements of national security systems through the development of policy and
    program or technical security performance reviews.
7.	 Cyber Security Sub-Council (CSS) of the TCIO Council – Serves as the formal means for gaining
    bureau input and advice as new policies are developed, enterprise-wide activities are considered, and
    performance measures are developed and implemented.

The TCIO has tasked the Associate Chief Information Officer for Cyber Security (ACIOCS) with the
responsibility of managing and directing the OCIO’s Cyber Security program, as well as ensuring
compliance with statutes, regulations, policies, and guidance. The ACIOCS and the Cyber Security
Program have established Treasury Directive Publication (TD P) 85-01, Treasury Information
Technology Security Program, as the Treasury-wide IT security policy to provide for information security
for all information and information systems that support the mission of the Treasury, including those
operated by another Federal agency or contractor on behalf of Treasury. In addition, as OMB periodically
releases updates/clarifications of FISMA or as NIST releases updates to publications, the ACIOCS and
the Cyber Security Program have responsibility to interpret and release updated policy for Treasury. The
ACIOCS and the Cyber Security Program are also responsible for promoting and coordinating a
Treasury-wide IT security program, as well as monitoring and evaluating the status of Treasury’s IT
security posture and compliance with statutes, regulations, policies, and guidance. Lastly, the ACIOCS
has the responsibility of managing Treasury’s IT CIP program for Treasury information technology
assets.

Bureau Chief Information Officers (CIOs)

Organizationally, the Treasury has established bureau-level and office Chief Information Officers (CIOs)
under the OCIO. The CIOs are responsible for managing the IT security program for their bureau, as well
as advising the bureau head on significant issues related to the bureau IT security program. The CIOs also
have the responsibility for overseeing the development of procedures that comply with Treasury OCIO
policy and guidance and federal statutes, regulations, policy, and guidance. The bureau Chief Information
Security Officers (CISO) are tasked by their respective CIOs to serve as the central point of contact for
the bureau’s IT security program, as well as to develop and oversee the bureau’s IT security program.
This includes the development of policies, procedures, and guidance required to implement and monitor
the bureau IT security program.




                                                                                                      Page 6
The Department of the Treasury FISMA Performance Audit – 2010
Treasury – Bureau OCIO Collaboration

The Treasury OCIO has established the Treasury CIO CSS, which is co-chaired by the ACIOCS and a
Bureau CIO. The CSS serves as a mechanism for obtaining bureau-level input and advises on new
policies, Treasury-wide IT security activities, and performance measures. The CSS also provides a means
for sharing IT security-related information among bureaus. Included on the CSS are representatives from
the OCIO, bureau CIO organizations, as well as the OIG – Office of IT Audits and TIGTA – Office of
Audits.




                                                                                                  Page 7
The Department of the Treasury FISMA Performance Audit – 2010

OBJECTIVE, SCOPE, & METHODOLOGY

The objectives for this performance audit were to determine the effectiveness of Treasury’s information
security programs and practices as of June 30, 2010, and to determine whether non-IRS Treasury bureaus
had implemented:

        An information security program, consisting of policies, procedures, and security controls
         consistent with the FISMA legislation
        The security controls catalog contained in NIST SP 800-53, Revision 2, Recommended Security
         Controls for Federal Information Systems.

We conducted our performance audit in accordance with generally accepted government auditing
standards (GAGAS) issued by the Comptroller General of the United States (U.S.). Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.

To accomplish our objectives, we evaluated security controls in accordance with applicable legislation,
Presidential directives, OMB Memorandum 10-15, FY 2010 Reporting Instructions for Federal
Information Security Management Act and Agency Privacy Management, and NIST standards and
guidelines as outlined in the Criteria section. We reviewed the Treasury information security program
from both the Department-level perspective for Treasury-wide program level controls and the Bureau-
level implementation perspective. We considered each area above to reach an overall conclusion
regarding Treasury’s information security program and practices.

KPMG took a phased approach to satisfy the audit’s objective. Specifically, the following three phases
were employed:

    I.   Assessment of Department-Level Compliance

    To gain an overall enterprise-level understanding, we assessed management, policies, and guidance
    for the overall Treasury-wide information security program per requirements defined in FISMA and
    OMB Memorandum 10-15, NIST Special Publication 800-53, as well as Treasury guidelines
    developed in response to FISMA. This included program controls applicable to information security
    governance, certification and accreditation, security configuration management, incident response and
    reporting, security training, plan of action and milestones (POA&M), remote access, account and
    identity management, continuous monitoring, contingency planning, and contractor systems.

    II. Assessment of Bureau-Level Compliance

    To gain an overall bureau-level understanding, we assessed the implementation of the guidance for
    the 13 bureau and office-wide information security programs per requirements defined in FISMA and
    OMB Memorandum 10-15, NIST Special Publication 800-53, as well as Treasury guidelines
    developed in response to FISMA. This included program controls applicable to information security
    governance, certification and accreditation, security configuration management, incident response and
    reporting, security training, POA&M, remote access, account and identity management, continuous
    monitoring, contingency planning, and contractor systems.




                                                                                                     Page 8
The Department of the Treasury FISMA Performance Audit – 2010
    III. Assessment of the Implementation of Select Security Controls from the NIST SP 800-53 

         Revision 2


    To gain an overall understanding of how effective the bureaus implemented information security
    programs at the system level, we assessed the implementation of a selection of security controls from
    the NIST SP 800-53 Revision 2 for a representative subset of Treasury information systems (see
    Appendix IV).

To conclude on the audit’s objectives, our scope included evaluating the information security practices
and policies established by the Treasury OCIO. In addition, we evaluated the information security
practices, policies, and procedures in use across the thirteen (13) bureaus of the Treasury, excluding the
IRS.

We also tested a representative subset of fifteen (15) information systems from a total population of 112
non-IRS major applications and general support systems as of April 14, 2010.1 We tested the fifteen (15)
information systems to determine whether bureaus were effective in implementing Treasury’s security
program and meeting the FIPS 200 minimum security standards to protect information and information
systems. Appendix III, Approach to Selection of Subset of Systems, provides additional details regarding
our system selection. The subset of systems encompassed systems managed and operated by twelve (12)
of 14 Treasury bureaus, excluding IRS and TIGTA2.

Our criteria for selecting security controls within each system were based on the following:
    Controls that were shared across a number of information systems, such as common controls.
    Controls that were likely to change over time (i.e. volatile) and require human intervention.
    Controls that were identified in prior audits as requiring management’s attention.

Other Considerations

In performing our control evaluations, we interviewed key Treasury OCIO personnel who had significant
information security responsibilities as well as personnel across the thirteen (13) non-IRS bureaus. We
also evaluated Treasury and bureaus’ policies, procedures, and guidelines. Lastly, we evaluated selected
security-related documents and records, including certification and accreditation packages, configuration
assessment results, and training records.

We performed our fieldwork at Treasury’s headquarters offices in Washington, D.C., and bureau
locations in Washington, D.C.; Hyattsville, Maryland; McLean, Virginia; Parkersburg, West Virginia;
and Newark, Delaware during the period of April 26, 2010 through September 30, 2010. During our
performance audit, we met with Treasury management to discuss our preliminary conclusions.




1
  A representative subset of information systems refers to KPMG’s approach of stratifying the population of non-IRS Treasury
   information system and selecting an information system from each Treasury bureau, excluding IRS and TIGTA, rather than
   selecting a random sample of information systems that might exclude a Treasury bureau.
2
  A decision was made to inspect only one (1) OIG system every year.



                                                                                                                        Page 9
The Department of the Treasury FISMA Performance Audit – 2010
Criteria

Our approach to this FISMA performance audit was based on federal information security guidance
developed by NIST and OMB. NIST Special Publications provide guidelines that are considered essential
to the development and implementation of agencies’ security programs.3 The following is a listing of the
criteria used in the performance of the Fiscal Year (FY) 2010 FISMA performance audit:

	 OMB Circular A-130, Management of Federal Information Resources

	 NIST FIPS Publication 199, Standards for Security Categorization of Federal Information and
   Information Systems

	 NIST FIPS Publication 200, Minimum Security Requirements for Federal Information and
   Information Systems

	 NIST Special Publications:
   o	 800-16, Information Technology Security Training Requirements: A Role- and Performance-
      Based Model
   o	 800-18 Revision 1, Guide for Developing Security Plans for Information Technology Systems
   o	 800-30, Risk Management Guide for Information Technology Systems
   o	 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems
   o	 800-39, Managing Risk from Information Systems: An Organizational Perspective
   o	 800-34, Contingency Planning Guide for Information Technology Systems
   o	 800-53 Revision 2, Recommended Security Controls for Federal Information Systems
   o	 800-53A, Guide for Assessing the Security Controls in Federal Information Systems
   o	 800-60, Guide for Mapping Types of Information and Information Systems to Security Categories
   o	 800-61, Computer Security Incident Handling Guide
   o	 800-70, Security Configuration Checklists Program for IT Products: Guidance for Checklists
      Users and Developers

	 OMB Memoranda
   o	 04-04, E-Authentication Guidance for Federal Agencies
   o	 04-25, FY 2004 Reporting Instructions for the Federal Information Security Management Act
   o	 07-11, Implementation of Commonly Accepted Security Configurations for Windows Operating
      Systems
   o	 07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable 

      Information

   o	 07-18, Ensuring New Acquisitions Include Common Security Configurations
   o	 08-22, Guidance on the Federal Desktop Core Configuration (FDCC)
   o	 10-15, FY 2010 Reporting Instructions for the Federal Information Security Management Act and
      Agency Privacy Management

	 Treasury Guidance
   o	 TD P 85-01, Treasury Information Technology Security Program

3
    Note (per OMB instructions): While agencies are required to follow NIST standards and guidance in accordance with OMB
    policy, there is flexibility within NIST’s guidance documents in how agencies apply the guidance. However, NIST Special
    Publication 800-53 is mandatory because FIPS 200 specifically requires it. Unless specified by additional implementing policy
    by OMB, guidance documents published by NIST generally allow agencies latitude in their application. Consequently, the
    application of NIST guidance by agencies can result in different security solutions that are equally acceptable and compliant
    with the guidance.



                                                                                                                         Page 10
The Department of the Treasury FISMA Performance Audit – 2010

OVERALL AUDIT RESULTS

We concluded that the Department’s information security program for its non-IRS bureaus was generally
consistent4 with the FISMA legislation and related information security policies, standards, and
guidelines. However, the program was not fully effective, resulting in the identification of the following
control deficiencies:

           1.	 Logical and Physical Account Management Activities Were Not Consistently Performed
           2.	 Outsourcing the Information System Security Officer (ISSO) Role Created an Information
               Technology (IT) Governance Concern at Financial Management System (FMS)
           3.	 Plan of Action and Milestones (POA&Ms) Were Not Updated Timely and Maintained at FMS
               and Office of the Comptroller of the Currency (OCC)
           4.	 Security Incidents Were Not Reported Timely at Bureau of the Public Debt (BPD) and
               Alcohol and Tobacco Tax and Trade Bureau (TTB)
           5.	 Reviews of Audit Logs Were Not Documented at Bureau of Engraving and Printing (BEP)
           6.	 Electronic Media Destruction Process at Financial Crimes Enforcement Network (FinCEN)
               Was Not Fully Compliant with Its Internal Policies
           7.	 Password Settings Were Not Properly Configured to Lockout for a BPD System

We have made 29 recommendations that, if addressed, will strengthen the bureaus, offices, and the
Department’s information security program.

       1.	 Logical and Physical Account Management Activities Were Not Consistently Performed

       We found access control review issues with certain bureaus and determined the need for additional
       attention department-wide. We identified control deficiencies in account management, specifically,
       the review of user access on an annual basis and the timely disabling of inactive user accounts. In
       addition, we noted deficiencies related to the review and configuration of physical access. When
       controls are ineffective, data and the operational status of the impacted systems could have an adverse
       impact on the mission, operations, and data of the bureau.

       2.	 Outsourcing the Information System Security Officer (ISSO) Role Created an IT 

           Governance Concern at FMS 


       FMS outsourced the ISSO position to a financial agent without first providing the ISSO the network
       connectivity to access Trusted Agent FISMA (TAF) and the bureau’s Intranet site containing security
       policy and security templates. Without the network connectivity, the individual could not perform all
       the required ISSO duties outlined in their ISSO appointment letter. In addition, the transfer of the
       ISSO function from an FMS employee to an employee of the financial agent created an additional
       concern regarding the reporting relationship of the ISSO to his supervisor, the financial agent’s
       operations manager. This reporting relationship may limit FMS’s ability to receive objective,
       independent reporting and may prevent the ISSO from fulfilling his duties.

       3.	 POA&Ms Were Not Updated Timely and Maintained at FMS and OCC

       We noted FMS and OCC did not include all vulnerabilities or timely submit and effectively track
       items on their POA&Ms. Without a centralized list of all known security weaknesses, OCIO may not


4
    TIGTA will provide a separate report evaluating the IRS’s implementation of the U.S. Treasury’s information security program.



                                                                                                                         Page 11
The Department of the Treasury FISMA Performance Audit – 2010
   be able to identify reoccurring security issues across multiple systems that could be remediated by a
   department-wide strategic corrective action plan.

   4.	 Security Incidents Were Not Reported Timely at BPD and TTB

   We noted an Incident Response and Reporting deficiency at BPD and TTB that did not timely report
   incidents to the TCSIRC. When security incidents are not reported timely, there is an increased risk
   that sensitive information, including personally identifiable information, could be divulged and a loss
   of public trust could occur.

   5.	 Reviews of Audit Logs Were Not Documented at BEP

   We noted a Continuous Monitoring deficiency at BEP because the bureau did not document reviews
   of audit logs. When this activity is performed, there is less risk that unauthorized activity and access
   can go undetected. At the close of our audit, we noted that the bureau was developing standard
   operating procedures to review audit logs on a routine basis.

   6.	 Electronic Media Destruction Process at FinCEN Was Not Fully Compliant with Its Internal
       Policies

   FinCEN was not fully compliant with its media sanitization process by leaving boxes containing old
   computer hard drives in an area outside the authorized custodian’s cubicle within the secured facility
   and not maintaining an inventory of these devices to ensure they were destroyed.

   7.	 Password Settings Were Not Properly Configured to Lockout for a BPD System

   BPD had invalid password lockout configuration settings on a network device. Upon notification by
   KPMG auditors, the settings were immediately corrected.

Our performance audit of the Department’s information security program identified 29 recommendations
that the bureaus, offices, and the Department should address to strengthen their information security
management programs. The Findings section of this report presents the detailed findings and associated
recommendations. In addition, we evaluated all prior year findings from the FY 2009 FISMA Evaluation
and determined that the bureaus implemented all recommendations, with the exception of Prior Year
Finding #5 for POA&Ms, which was reissued as FY 2010 Finding #3. See Appendix I, Status of Prior
Year Findings, for additional details.




                                                                                                      Page 12
The Department of the Treasury FISMA Performance Audit – 2010

FINDINGS

1.	 Logical and Physical Account Management Activities Were Not Consistently Performed

The audit identified an inconsistent implementation of account management and physical access security
controls at six (6) bureaus including the BEP, DO, FinCEN, OCC, OIG, and the OTS. This finding
indicated that the Treasury OCIO had not provided sufficient oversight to enforce and monitor
compliance with Treasury and NIST identity and access management standards and guidelines. KPMG
noted the following:

1.	 Account Management activities were not consistently performed as required by the TD P 85-01,
    Treasury Information Technology Security Program, and bureau-specific policies at five (5) bureaus
     BEP did not document its review of user accounts for the selected system in accordance with their
       system security plan.
     The DO system had user and administrator accounts that had been inactive for over ninety (90)
       days and had not been disabled. These accounts are created and maintained by the OCIO, who
       uses the system for performance of their Treasury-wide FISMA oversight role.
     The OCC system did not have an automated control in place to automatically deactivate users’
       accounts after the bureau-defined period of inactivity.
     The OIG systems had user and administrator accounts that had been inactive for over ninety (90)
       days and had not been disabled.
    	 The periodic review of the OTS application users’ access did not include reviewing users’
       privileges within the application in order to determine if they were appropriate based on users’
       roles at the OTS. The review of access only had accessed whether users were active employees at
       the organization.
2.	 Physical Access to restricted areas was not properly reviewed and administered as required by the TD
    P 85-01, Treasury Information Technology Security Program, and bureau-specific policies at two (2)
    bureaus
     Physical access to the FinCEN data center was not reviewed annually and access approval forms
       were not maintained.
     The OIG Local Area Network (LAN) room’s access list was not reviewed annually and users,
       who no longer need access, were not removed in a timely manner.

The above control deficiencies shared a common cause that the respective bureau or office did not
appropriately review user access and disable or delete unnecessary access. By not providing sufficient
oversight to ensure that all bureaus have followed Treasury and NIST requirements for the design,
implementation, and testing of security controls, the Treasury OCIO may not be able to fulfill its
oversight responsibilities in accordance with TD P 85-01. This could lead to potential weaknesses of
logical and physical access of information systems across the entire Department. By not implementing a
periodic review of all user and administrator accounts’ inactivity and disabling the accounts according to
policy, there is an increased risk that users could gain or retain unauthorized access and/or perform
unauthorized transactions within their respective systems. By not implementing the periodic review of all
users’ physical access to their bureaus’ IT facilities, there is an increased risk that unauthorized users
could obtain physical access to secure areas they were not authorized to access.




                                                                                                    Page 13
The Department of the Treasury FISMA Performance Audit – 2010

We recommend that OCIO management:
1.	 Provide sufficient oversight5 by the Treasury OCIO Cyber Security Program over the NIST Special
    Publication 800-53 security controls around Account Management, Physical Access Authorization,
    and Physical Access Control to ensure that the bureaus implement these controls. This can be
    accomplished by reviewing the implementation of these controls during the next OCIO review at each
    bureau.
2.	 Ensure administrators for the reviewed DO system review user accounts and disable inactive accounts
    in accordance with TD P 85-01 (as a minimum) and any applicable bureau policy.
3.	 Review administrator accounts for inactivity on a quarterly basis and disable accounts per the TD P
    85-01 for the reviewed DO system.
4.	 Train the reviewed DO system’s administrators on how to review the accounts of the users assigned to
    their respective bureaus on a quarterly basis and disable the accounts that exceed ninety (90) days of
    inactivity.

We recommend that the BEP management:
5.	 Perform and document user access reviews for their system in accordance with their system security
    plan.

We recommend that FinCEN management:
6.	 Perform review and validation of physical access to restricted areas, annually.
7.	 Document and approve all employees’ physical access requirements.
8.	 Document and approve the door “zone” configuration of the physical access control system.
9.	 Develop a documented procedure for the approval, administration, review, and validation of access to
    restricted areas.

We recommend that OCC management:
10. Develop and implement an automated means to disable inactive user accounts from the reviewed
    system after sixty (60) days for Federal employees and thirty (30) days for contractors.

We recommend that OIG management:
11. Ensure domain user accounts are reviewed for inactivity on an annual basis and domain administrator
    accounts are reviewed for inactivity on a semiannual basis, and any accounts that exceed ninety (90)
    days of inactivity are disabled.
12. Develop policies and procedures and document them in the system security plan for the annual review
    of OIG LAN room access.
13. Conduct a review of users’ access to the OIG LAN room annually and remove access privileges for
    those individuals that do not need access.



5
    The OCIO does not provide oversight over the OIG or TIGTA to preserve the independence of the offices.



                                                                                                             Page 14
The Department of the Treasury FISMA Performance Audit – 2010
We recommend that OTS management:
14. Develop and implement a training program that outlines how the six-month user privileges review
    should be performed.
15. Develop and implement a mechanism to track completion of the six-month user privileges review.


2. Outsourcing the ISSO Role Created an IT Governance Concern at FMS

FMS transferred the ISSO role from a government employee to a bank employee for an outsourced
information system in March 2010 by utilizing an existing financial agent agreement with a large national
bank. The outsourcing of the ISSO role created two (2) IT governance concerns.

First, KPMG noted that the appointed ISSO, a bank employee, could not fully perform his assigned
information security duties such as:

      Implementing changes to FMS IT security policies;
      Updating the POA&Ms for the outsourced information system; and
      Maintaining and uploading, when appropriate, the system security plan, the Contingency Plan,
       and Configuration Management Plan to the TAF tool.

The bank employee could not perform these duties, as the national bank and FMS had not established a
network communication link or other remote access solution prior to outsourcing the ISSO role.
Additionally, FMS had not included the bank employee on all FMS ISSO e-mail distribution lists to
ensure the bank employee received timely notification of revisions and updates to FMS policy and
procedures. As a result, the ISSO was uninformed of changes to FMS policies and FMS security
templates such as the system security plan. FMS management reported that action was taken to remediate
the control deficiency by including the bank employee on all ISSO e-mail distribution lists and requesting
remote access to FMS’s network for the bank employee.

Second, the transfer of the ISSO role from a FMS employee to a bank employee created additional
concerns regarding IT governance. Specifically, the new ISSO, a bank employee, reported to the
Operations Manager for the outsourced information system. The Operations Manager’s primary
responsibility is to ensure the availability of the information system and efficiency of operations. Private
industry and government best practice suggest that the IT functions of computer operations should be
separate from information security within IT departments to appropriately separate duties and balance the
conflicting objectives of availability and operational efficiency (i.e. Operations) against the desire for
greater control and limited access (i.e. Security). The reporting relationship of the ISSO to the Operations
Manager may limit FMS’s ability to receive objective, independent, and complete reporting of security
matters and events.

In 2009, FMS changed its internal policies, permitting the ISSO position to be outsourced. Other factors
contributed to the decision such as budgeted staff reductions and a belief that an ISSO role could be more
effective when located at the bank’s development center. Unfortunately, when the policy decision
changed and FMS elected to outsource the ISSO role, FMS did not develop additional guidance for
information system owners to mitigate potential conflicts and separation of duties concerns. Specific to
the communication needs of an outsourced ISSO, FMS did not confirm that communication needs were
satisfied prior to transferring the ISSO position to a bank employee.




                                                                                                      Page 15
The Department of the Treasury FISMA Performance Audit – 2010
We recommend that FMS Management:

16. Provide the ISSO with the network connectivity that will allow the bank employee access to FMS
    internal resources such as Treasury’s FISMA collection and reporting tool, current FMS IT security
    policy and security templates, and ability to receive FMS email alerts regarding changes to FMS IT
    security policy and security templates.

17. Create FMS official guidance covering the appointment of the ISSO position at external providers. In
    such circumstances, FMS should confirm that communication requirements and needs are satisfied
    prior to outsourcing the ISSO position. Additionally, the guidance should address reporting
    relationships that might impact the ISSO’s objectivity and clearly identify monitoring activities and
    assignment of responsibility to an FMS employee to mitigate potential conflicts.
18. Evaluate solutions to mitigate concerns over ISSO-management reporting relationships, which could
    include, for example, establishing or modifying internal controls, implementing monitoring tools, re-
    aligning the ISSO position under the bank’s Information Security team or elsewhere within the bank,
    contracting for ISSO services through a different provider such as independent verification and
    validation contractor, or reassigning ISSO responsibilities back to an FMS employee.


3. POA&Ms Were Not Updated Timely and Maintained at FMS and OCC

OMB required that all federal agencies implement a POA&M process to identify tasks that are necessary
to remediate identified security weaknesses. The POA&M should detail resources required to accomplish
the elements of the plan, any milestones in meeting the tasks, and scheduled completion dates for the
milestones. The OCIO has established policies and procedures governing the development and
maintenance of POA&Ms for Department information systems and has specified the TAF tool as the
central repository for POA&Ms. In addition, the bureaus also developed policies and procedures to
implement Departmental guidance. However, the management of POA&Ms at FMS and OCC were not
conducted in accordance with the guidance provided. Specifically, KPMG noted the following:

          For two (2) of the three (3) FMS systems reviewed, previously identified security weaknesses and
           associated remediation plans were not added timely (i.e., within 30 days6) to the POA&Ms of
           record as required by OMB M-10-15, Treasury policy, and FMS policy.
          For one (1) OCC system, previously identified security weaknesses and associated remediation
           plans were not added timely to the POA&M as required by OMB M-10-15, Treasury policy, and
           bureau standards. Specifically, OCC did not update, submit, and include all necessary POA&M
           elements for an information system.

By not maintaining updated POA&Ms, including all identified security weakness and associated
information in TAF, the OCIO’s ability to monitor aggregated risks to its systems as well as prioritize
limited IT resources to address known security weaknesses may be hindered. Additionally, without a
centralized list of all known security weaknesses, OCIO may not be able to identify reoccurring security
issues across multiple systems that could be remediated by a department-wide strategic corrective action
plan. Further, by not consistently recording identified security weaknesses in TAF, the summary-level
security metrics reported to OMB will under-report the true number of known security weaknesses
associated with the Department’s information systems.


6
    FMS policy requires that POA&M items are entered within 30 days for information systems with a FIPS 199 High impact
    classification.



                                                                                                                     Page 16
The Department of the Treasury FISMA Performance Audit – 2010
We recommend that FMS management:
19. Direct ISSOs to develop and record POA&M items in TAF within the designated time period when
    security vulnerabilities are identified.
20. Provide additional oversight across all FMS systems to ensure that the POA&M process is managed
    in accordance with FMS, Treasury, and OMB policy and guidance.

We recommend that OCC management:
21. Populate the information system’s POA&M to include vulnerabilities found in all applicable IT
    security reviews and audits, including vulnerabilities identified from annual assessments, audit
    reports, Treasury ACIOCS reviews, or internal bureau evaluations.
22. Populate the information system’s POA&M with the information required by Treasury and OCC.
23. Develop and implement a training program for all individuals tasked with implementing the OCC
    POA&M process.


4. Security Incidents Were Not Reported Timely at BPD and TTB

BPD and TTB did not consistently report security incidents in a timely manner in accordance with NIST
Special Publication 800-53, OMB M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information, and Treasury and bureau policy.

      Of thirteen (13) incidents documented by BPD during the reporting period, KPMG determined
       that four (4) of the incidents were not reported to TCSIRC within the required time period.
      Of fifteen (15) incidents documented by TTB during the reporting period, KPMG determined that
       two (2) of the incidents were not reported to TCSIRC within the required time period.

By not reporting incidents or potential incidents to TCSIRC in a timely manner, there is a risk that the
incident will not be responded to properly. This may result in an increased risk that sensitive information,
including personally identifiable information, could be divulged and a loss of public trust could occur.

We recommend that BPD management:
24. Ensure that all potential and actual security incidents are reported to TCSIRC within the required time
    period.

We recommend that TTB management:
25. Ensure that all potential and actual security incidents are reported to TCSIRC within the required time
    period.




                                                                                                       Page 17
The Department of the Treasury FISMA Performance Audit – 2010


5.	 Reviews of Audit Logs Were Not Documented at BEP

BEP did not document reviews of audit logs for the system we reviewed in accordance with NIST Special
Publication 800-53 and Treasury policy. The lack of monitoring and regular review of audit logs can
increase the risk that unauthorized access to the information system may go undetected.

We recommend that BEP management:
26. Develop and implement a process to review audit log information on a monthly basis for the
    information system that includes a requirement to document the reviews performed.


6.	 Electronic Media Destruction Process at FinCEN Was Not Fully Compliant with Its
    Internal Policies

In order to prevent unauthorized access to Treasury information, electronic media that is no longer in use
must be securely stored and appropriately tracked until destroyed. FinCEN did not adequately follow their
information systems security program for media sanitization, which requires media to be physically
secured when both stored and transported, and that appropriate audit trail records be maintained. KPMG
observed nine (9) cardboard boxes containing over 300 hard drives that were stored in an area outside the
authorized custodian’s cubicle within the FinCEN secured facility. Lists containing the serial numbers of
the hardware in the boxes, which would allow for tracking, were not included with the hardware. In
addition, serial numbers of hardware and electronic recording media, that were destroyed, were not
reconciled against the inventory lists to verify that all equipment and media were appropriately destroyed.
By not securing the electronic media in a manner that restricts access to only the authorized custodian,
and then not reconciling the serial numbers of destroyed electronic media against the known inventory
listing, it is impossible to determine if all electronic media, initially identified as requiring destruction,
were actually destroyed.

We recommend that FinCEN management:

27. Secure and restrict access to media scheduled to be destroyed in accordance with their media
    sanitization policies.
28. Maintain a list identifying the device, serial number, and physical location of media that is scheduled
    to be destroyed.
29. Reconcile the destroyed hardware and electronic recording media with the list of items to be
    destroyed.




                                                                                                       Page 18
The Department of the Treasury FISMA Performance Audit – 2010


7. Password Settings Were Not Properly Configured to Lockout for a BPD System

Administrative accounts on a BPD information system were not locked after a defined number of invalid
login attempts in accordance with NIST Special Publication 800-53 and system documentation. The
system KPMG tested contained a technical error that did not enforce account lockouts after the defined
number of invalid login attempts. After this control deficiency was identified, BPD management updated
the system configuration settings to ensure that accounts and passwords were locked appropriately. By
not enforcing effective lockout controls over administrative accounts to the information system, the
potential for a malicious party to compromise user account passwords increased.

Since BPD management updated the system configurations to remediate this finding, no
recommendations were necessary.




                                                                                                Page 19
The Department of the Treasury FISMA Performance Audit – 2010

MANAGEMENT RESPONSE TO DRAFT REPORT

The following is the OCIO’s response, dated October 29, 2010, to the draft FY 2010 FISMA Performance
Audit Report.




                                                                                              Page 20
The Department of the Treasury FISMA Performance Audit – 2010



                                       October 29, 2010


   MEMORANDUM FOR MARLA A. FREEDMAN 

                  ASSISTANT INSPECTOR GENERAL FOR AUDIT

   FROM:                     Diane C. Litman /s/
                             Acting Deputy Assistant Secretary for Information Systems
                             and Chief Information Officer

   SUBJECT:                  Management Response to Draft Audit Report - FY 2010 Audit
                             of Treasury’s FISMA Implementation for Its Unclassified
                             Systems

   Thank you for the opportunity to comment on the draft audit report entitled, “FY 2010
   Audit of Treasury’s Federal Information Security Management Act (FISMA)
   Implementation for Its Unclassified Systems.” The audit focuses on the adequacy of the
   Department’s information security program and practices for its unclassified systems. We
   appreciate your acknowledgement that our security program is in place and is generally
   consistent with FISMA. We have carefully reviewed the draft and are in agreement with
   all findings and recommendations. Please refer to the attachment for further details on our
   planned corrective actions.

   The Department is committed to continual improvement of its security program and
   meeting requirements of FISMA. We have made notable progress over the past year. For
   example, we closed all but one recommendation from last year’s FISMA audit.
   Additionally, we have focused on the new White House security priorities, including
   automated reporting, as well as creative use of social media and cloud technologies. Our
   cloud-hosted security dashboard has improved the efficiency and reduced data collection
   costs while enabling the Department to monitor security performance at anytime from
   anywhere. Refining and collecting our measures in a collaborative, modern environment
   enabled steady security improvement and our ability to make risk-based decisions based
   upon real-time, accurate information.

   We appreciate audit recommendations as they will help improve our security posture. If
   you have any questions, feel free to call Edward Roback, Associate Chief Information
   Officer for Cyber Security at 202-622-2593.

   Attachment

   cc: 	   Edward Roback, Associate CIO for Cyber Security and Chief Information
           Security Officer
           Joel A. Grover, Deputy Assistant Inspector General for Financial Management
           and Information Technology Audit



                                                                                       Page 21
The Department of the Treasury FISMA Performance Audit – 2010

                             Management Response to OIG Recommendations

   Note: The Department agrees with all findings and recommendations.

   (U) OIG Finding 1: Logical and Physical Account Management Activities Were Not
   Consistently Performed

   (U) OIG Recommendation 1: For Office of the Chief Information Officer (OCIO), we
   recommend that management: Provide sufficient oversight7 by the Treasury OCIO Cyber
   Security Program over the National Institute of Standards and Technology (NIST)
   Special Publication 800-53 security controls around Account Management, Physical
   Access Authorization, and Physical Access Control to ensure that the bureaus implement
   these controls. This can be accomplished by reviewing the implementation of these
   controls during the next OCIO review at each bureau.

               (U) Treasury Response: Treasury agrees with this recommendation. Treasury
               OCIO will enhance its Cyber Security Program by placing additional emphasis on
               the oversight of NIST Special Publication 800-53 security controls families
               pertaining to access and physical controls. Target completion date is June 30,
               2011.

               (U) Responsible Official: Edward Roback, Associate Chief Information Officer
               for Cyber Security (ACIO CS) and Chief Information Security Officer (CISO),
               Treasury

   (U) OIG Recommendation 2: For OCIO, we recommend that management: Ensure
   administrators for the reviewed (Departmental Offices) DO system review user accounts
   and disable inactive accounts in accordance with (Treasury Directive Publication) TD P
   85-01 (as a minimum) and any applicable bureau policy.

               (U) Treasury Response: Treasury agrees with this recommendation.
               Treasury OCIO will develop processes and procedures to ensure that
               administrators of the reviewed DO system review user accounts and disable
               inactive accounts in accordance with both Treasury and applicable bureau
               policies. Target completion date is June 30, 2011.

               (U) Responsible Official: Edward Roback, ACIO CS and CISO, Treasury

   (U) OIG Recommendation 3: For OCIO, we recommend that management: Review
   administrator accounts for inactivity on a quarterly basis and disable accounts per the TD
   P 85-01 for the reviewed DO system.

               (U) Treasury Response: Treasury agrees with this recommendation.
               Treasury OCIO will ensure that administrator accounts are reviewed for inactivity
   7
       The OCIO does not provide oversight over the OIG or TIGTA to preserve the independence of the offices.



                                                                                                                Page 22
The Department of the Treasury FISMA Performance Audit – 2010
           on a quarterly basis and disable accounts per the TD P 85-01 for the reviewed DO
           system. Target completion date is December 30, 2010.

           (U) Responsible Official: Edward Roback, ACIO CS and CISO, Treasury

   (U) OIG Recommendation 4: For OCIO, we recommend that management: Train the
   reviewed DO system’s administrators on how to review the accounts of the users
   assigned to their respective bureaus on a quarterly basis and disable the accounts that
   exceed ninety (90) days of inactivity.

           (U) Treasury Response: Treasury agrees with this recommendation.
           Treasury OCIO will ensure that administrators of the reviewed DO system are
           trained on bureau level user account management to ensure compliance with
           Treasury’s account inactivity policy. Target completion date is June 30, 2011.

           (U) Responsible Official: Edward Roback, ACIO CS and CISO, Treasury

   (U) OIG Recommendation 5: For (Bureau of Engraving and Printing) BEP, we
   recommend that management: Perform and document user access reviews for their
   system in accordance with their system security plan.

           (U) Treasury Response: Treasury agrees with this recommendation. BEP
           will establish a repository to archive user access reviews within 30 days. Target
           completion date is November 30, 2010.

           (U) Responsible Official: Harinder Singh, CISO, BEP

   (U) OIG Recommendation 6: For (Financial Crime Enforcement Network) FinCEN, we
   recommend that management: Perform review and validation of physical access to
   restricted areas, annually.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           FinCEN will ensure that access to restricted physical access areas are reviewed
           and validated annually; all employees' physical access requirements are
           documented and approved to the restricted areas; document and approve the zone
           configurations of the restricted areas; and develop a documented procedure for
           approval, administration, and revalidation of access to restricted areas. Target
           completion date is January 31, 2011.

           (U) Responsible Official: Gregory Sohn, CISO, FinCEN

   (U) OIG Recommendation 7: For FinCEN, we recommend that management:
   Document and approve all employees’ physical access requirements.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           FinCEN will ensure that access to restricted physical access areas are reviewed



                                                                                        Page 23
The Department of the Treasury FISMA Performance Audit – 2010
           and validated annually; all employees’ physical access requirements are
           documented and approved to the restricted areas; document and approve the
           zone configurations of the restricted areas; and develop a documented
           procedure for approval, administration, and revalidation of access to restricted
           areas. Target completion date is January 31, 2011.

           (U) Responsible Official: Gregory Sohn, CISO, FinCEN

   (U) OIG Recommendation 8: For FinCEN, we recommend that management:
   Document and approve the door “zone” configuration of the physical access control
   system.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           FinCEN will ensure that access to restricted physical access areas are
           reviewed and validated annually; all employees' physical access requirements
           are documented and approved to the restricted areas; document and
           approve the zone configurations of the restricted areas; and develop a
           documented procedure for approval, administration, and revalidation of access
           to restricted areas. Target completion date is January 31, 2011.

           (U) Responsible Official: Gregory Sohn, CISO, FinCEN

   (U) OIG Recommendation 9: For FinCEN, we recommend that management: Develop a
   documented procedure for the approval, administration, and review and validation of
   access to restricted areas.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           FinCEN will ensure that access to restricted physical access areas are reviewed
           and validated annually; all employees' physical access requirements are
           documented and approved to the restricted areas; document and approve the
           zone configurations of the restricted areas; and develop a documented
           procedure for approval, administration, and revalidation of access to restricted
           areas. Target completion date is January 31, 2011.

           (U) Responsible Official: Gregory Sohn, CISO, FinCEN

   (U) OIG Recommendation 10: For (Office of the Comptroller of the Currency) OCC,
   we recommend that management: Develop and implement an automated means to disable
   inactive user accounts from the reviewed system after sixty (60) days for Federal
   employees and thirty (30) days for contractors.

           (U) Treasury Response: Treasury agrees with this recommendation.
           Recognizing room for improvement in the account management controls currently
           in place, the OCC has enlisted contractor support in evaluating the current
           account management program. This effort includes developing requirements and
           working with stakeholders to determine the viability of implementing an



                                                                                         Page 24
The Department of the Treasury FISMA Performance Audit – 2010
           automated tool that integrates with Microsoft Active Directory. This remediation
           is ongoing, with a planned remediation date of June 30, 2011.

           (U) Responsible Official: Roger Mahach, CISO and Chief Privacy Officer
           (CPO), OCC

   (U) OIG Recommendation 11: For OIG, we recommend that management: Ensure
   domain user accounts are reviewed for inactivity on an annual basis and domain
   administrator accounts are reviewed for inactivity on a semiannual basis, and any
   accounts that exceed ninety (90) days of inactivity are disabled.

           (U) OIG Response: Treasury agrees with this recommendation. OIG
           Planned Corrective Action: Disable unused accounts after 90 days. Target
           completion date is September 23, 2010.


           (U) Responsible Official: Dee Thompson, Director of Information Technology,
           OIG

   (U) OIG Recommendation 12: For OIG, we recommend that management: Develop
   policies and procedures and document them in the system security plan for the annual
   review of OIG LAN room access.

           (U) OIG Response: Treasury agrees with this recommendation. OIG Planned
           Corrective Action: Review LAN room’s access list annually and remove users
           who no longer need access. Target completion date is December 31, 2010.

           (U) Responsible Official: Dee Thompson, Director of Information Technologies,
           OIG

   (U) OIG Recommendation 13: For OIG, we recommend that management: Conduct a
   review of users’ access to the OIG LAN room annually and remove access privileges for
   those individuals that do not need access.

           (U) OIG Response: Treasury agrees with this recommendation. OIG Planned
           Corrective Action: Update Operational, Technical, and Management Controls in
           the OIG system security plan. Target completion date is December 31, 2010

           (U) Responsible Official: Dee Thompson, Director of Information Technologies,
           OIG

   (U) OIG Recommendation 14: For (Office of Thrift Supervision) OTS, we recommend
   that management: Develop and implement a training program that outlines how the six-
   month user privileges review should be performed.

           (U) Treasury Response: Treasury agrees with this recommendation. OTS
           will ensure that a training program is developed and implemented that outlines


                                                                                      Page 25
The Department of the Treasury FISMA Performance Audit – 2010
           how six-month user privileges reviews should be performed. OTS has already
           conducted a briefing for responsible officials detailing the additional measures
           that must be taken during the account review and the frequency of which these
           reviews must occur. Target completion date is June 30, 2011.

           (U) Responsible Official: Andrew Krug, CISO, OTS

    (U) OIG Recommendation 15: For OTS, we recommend that management: Develop
   and implement a mechanism to track completion of the six-month user privileges review.

           (U) Treasury Response: Treasury agrees with this recommendation. OTS will
           ensure that mechanisms are developed and implemented which track the
           completion of the six-month user privileges review process. OTS is in the process
           of amending its Enterprise Continuous Monitoring process to include account
           reviews/audits of application user bases consistent with internal policies. Target
           completion date is January 30, 2011.

           (U) Responsible Official: Andrew Krug, CISO, OTS


   (U) OIG Finding 2: Outsourcing the ISSO Role Created an IT Governance Concern
   at FMS

   (U) OIG Recommendation 16: For (Financial Management Service) FMS, we
   recommend that management: Provide the (Information System Security Officer) ISSO
   with the network connectivity that will allow the bank employee access to FMS internal
   resources such as Treasury’s FISMA collection and reporting tool, current FMS
   (Information Technology) IT security policy and security templates, and ability to receive
   FMS email alerts regarding changes to FMS IT security policy and security templates.

           (U) Treasury Response: Treasury agrees with this recommendation.
           1) FMS will provide the network connectivity that will allow access to FMS
           internal resources such as Trusted Agent FISMA (TAF), IT security policy
           updates, and updates to IT security templates by June 30, 2011; 2) FMS will
           review the ISSO duties to determine any gaps in capabilities by February 11,
           2011; and 3) FMS will take appropriate actions against identified gaps by June
           30, 2011. Target completion date is June 30, 2011.

           (U) Responsible Official: David Ambrose, CISO, Director, Security & Audit
           Directorate, FMS

   (U) OIG Recommendation 17: For FMS, we recommend that management: Create FMS
   official guidance covering the appointment of the ISSO position at external providers. In
   such circumstances, FMS should confirm that communication requirements and needs are
   satisfied prior to outsourcing the ISSO position. Additionally, the guidance should
   address reporting relationships that might impact the ISSO’s objectivity and clearly



                                                                                        Page 26
The Department of the Treasury FISMA Performance Audit – 2010
   identify monitoring activities and assignment of responsibility to an FMS employee to
   mitigate potential conflicts.

           (U) Treasury Response: Treasury agrees with this recommendation. FMS
           Mission Assurance will develop and issue guidance concerning the appointment
           of the ISSO position at external providers. Target completion date is June 30,
           2011.

           (U) Responsible Official: David Ambrose, CISO, Director, Security & Audit
           Directorate, FMS

   (U) OIG Recommendation 18: For FMS, we recommend that management: Evaluate
   solutions to mitigate concerns over ISSO-management reporting relationships, which
   could include, for example, establishing or modifying internal controls, implementing
   monitoring tools, re-aligning the ISSO position under the bank’s Information Security
   team or elsewhere within the bank, contracting for ISSO services through a different
   provider such as an Independent Verification and Validation contractors, or reassigning
   ISSO responsibilities back to an FMS employee.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           Authorizing Official and System Owner will review the ISSO reporting
           relationship and determine what if any changes need to be made. Target
           completion date is June 30, 2011.

           (U) Responsible Official: David Ambrose, CISO, Director, Security & Audit
           Directorate, FMS

   (U) OIG Finding 3: POA&Ms Were Not Updated Timely and Maintained at FMS
   and OCC

   (U) OIG Recommendation 19: For FMS, we recommend that management: Direct
   ISSOs to develop and record POA&M items in TAF within the designated time period
   when security vulnerabilities are identified.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           FMS CISO will issue a memo to all ISSO’s directing them to develop and record
           POA&M items in TAF within the designated time-period according to FMS
           policy when security vulnerabilities are identified. Target completion date is
           June 30, 2011.

           (U) Responsible Official: David Ambrose, CISO, Director, Security & Audit
           Directorate, FMS

   (U) OIG Recommendation 20: For FMS, we recommend that management: Provide
   additional oversight across all FMS systems to ensure that the POA&M process is
   managed in accordance with FMS, Treasury, and OMB policy and guidance.


                                                                                      Page 27
The Department of the Treasury FISMA Performance Audit – 2010

           (U) Treasury Response: Treasury agrees with this recommendation. FMS
           Mission Assurance will implement a tracking mechanism for all security
           reviews and inform ISSOs of the date those reviews must be in TAF. Target
           completion date is June 30, 2011.

           (U) Responsible Official: David Ambrose, CISO, Director, Security & Audit
           Directorate, FMS

   (U) OIG Recommendation 21: For OCC, we recommend that management: Populate
   the information system’s POA&M to include vulnerabilities found in all applicable IT
   security reviews and audits, including vulnerabilities identified from annual assessments,
   audit reports, Treasury ACIOCS reviews, or internal bureau evaluations.

           (U) Treasury Response: Treasury agrees with this recommendation. To
           address a gap in the management of remediation activities, and the allocation of
           resources associated with the remediation of vulnerabilities across systems, the
           OCC Information Risk Management (IRM) office has begun to implement a
           program to issue a Notice of Potential Finding and Recommendation (NPFR).
           Utilizing the NPFR as a vehicle by which IRM is able to elevate findings to senior
           management and communicate ownership to stakeholders, IRM aims to receive
           increased commitment to the Plan of Action and Milestones process from
           vulnerability owners. This remediation is ongoing, with a planned completion
           date of June 30, 2011.

           (U) Responsible Official: Roger Mahach, CISO and CPO, OCC

   (U) OIG Recommendation 22: For OCC, we recommend that management: Populate
   the information system’s POA&M with the information required by Treasury and OCC.

           (U) Treasury Response: Treasury agrees with this recommendation. To
           address a gap in the management of remediation activities, and the allocation of
           resources associated with the remediation of vulnerabilities across systems, the
           OCC Information Risk Management (IRM) office has begun to implement a
           program to issue a Notice of Potential Finding and Recommendation (NPFR).
           Utilizing the NPFR as a vehicle by which IRM is able to elevate findings to senior
           management and communicate ownership to stakeholders, IRM aims to receive
           increased commitment to the Plan of Action and Milestones process from
           vulnerability owners. This remediation is ongoing, with a planned completion
           date of June 30, 2011.

           (U) Responsible Official: Roger Mahach, CISO and CPO, OCC

   (U) OIG Recommendation 23: For OCC, we recommend that management: Develop
   and implement a training program for all individuals tasked with implementing the OCC
   POA&M process.



                                                                                       Page 28
The Department of the Treasury FISMA Performance Audit – 2010

           (U) Treasury Response: Treasury agrees with this recommendation. To
           address a gap in the management of remediation activities, and the allocation of
           resources associated with the remediation of vulnerabilities across systems, the
           OCC Information Risk Management (IRM) office has begun to implement a
           program to issue a Notice of Potential Finding and Recommendation (NPFR).
           Utilizing the NPFR as a vehicle by which IRM is able to elevate findings to senior
           management and communicate ownership to stakeholders, IRM aims to receive
           increased commitment to the Plan of Action and Milestones process from
           vulnerability owners. This remediation is ongoing, with a planned completion
           date of June 30, 2011.

           (U) Responsible Official: Roger Mahach, CISO and CPO, OCC


   (U) OIG Finding 4: Security Incidents Were Not Reported Timely at BPD and TTB

   (U) OIG Recommendation 24: For (Bureau of the Public Debt) BPD, we recommend
   that management: Ensure that all potential and actual security incidents are reported to
   (Treasury Computer Security Incident Response Center) TCSIRC within the required
   time period.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           BPD will review and revise incident response procedures to ensure that
           incidents are reported to TCSIRC in accordance with Treasury defined time
           requirements. Target completion date is February 2, 2011.

           (U) Responsible Official: Jim McLaughlin, CISO and Privacy Act Officer
           (PAO), BPD

   (U) OIG Recommendation 25: For (The Alcohol and Tobacco Tax and Trade Bureau)
   TTB, we recommend that management: Ensure that all potential and actual security
   incidents are reported to TCSIRC within the required time period.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           current TTB incident response procedures ensure that incidents are reported to
           TCSIRC in accordance with Treasury defined time requirements. Additionally, all
           Incident Response personnel are trained in the new procedure to ensure that all
           security incidents are reported to TCSIRC within the required time period. The
           completion date was June 30, 2010. Status: Closed

           (U) Responsible Official: Jackie Washington, ACIO - IT Security, TTB




                                                                                        Page 29
The Department of the Treasury FISMA Performance Audit – 2010
   (U) OIG Finding 5: Reviews of Audit Logs Were Not Documented at BEP

   (U) OIG Recommendation 26: For BEP, we recommend that management: Develop and
   implement a process to review audit log information on a monthly basis for the
   information system that includes a requirement to document the reviews performed.

           (U) Treasury Response: Treasury agrees with this recommendation. BEP
           will establish a repository to archive audit log reviews within 30 days. Target
           completion date is November 30, 2010.

           (U) Responsible Official: Harinder Singh, CISO, BEP


   (U) OIG Finding 6: Electronic Media Destruction Process at FinCEN Was Not Fully
   Compliant with Its Internal Policies

   (U) OIG Recommendation 27: For FinCEN, we recommend that management: Secure
   and restrict access to media scheduled to be destroyed in accordance with their media
   sanitization policies.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           FinCEN CIO will ensure that media scheduled to be destroyed is properly
           secured and access restricted; a media destruction list is maintained that identifies
           the device, serial number, and physical location of the media to be destroyed; and
           will reconcile the destroyed hardware and media against the list of items to be
           destroyed. Target completion date is January 31, 2011.


           (U) Responsible Official: Gregory Sohn, CISO, FinCEN

   (U) OIG Recommendation 28: For FinCEN, we recommend that management:
   Maintain a list identifying the device, serial number, and physical location of media that
   is scheduled to be destroyed.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           FinCEN CIO will ensure that media scheduled to be destroyed is properly secured
           and access restricted; a media destruction list is maintained that identifies the
           device, serial number, and physical location of the media to be destroyed; and will
           reconcile the destroyed hardware and media against the list of items to be
           destroyed. Target completion date is January 31, 2011.


           (U) Responsible Official: Gregory Sohn, CISO, FinCEN




                                                                                          Page 30
The Department of the Treasury FISMA Performance Audit – 2010

    (U) OIG Recommendation 29: For FinCEN, we recommend that management:
   Reconcile the destroyed hardware and electronic recording media with the list of items to
   be destroyed.

           (U) Treasury Response: Treasury agrees with this recommendation. The
           FinCEN CIO will ensure that media scheduled to be destroyed is properly secured
           and access restricted; a media destruction list is maintained that identifies the
           device, serial number, and physical location of the media to be destroyed; and will
           reconcile the destroyed hardware and media against the list of items to be
           destroyed. Target completion date is January 31, 2011.


           (U) Responsible Official: Gregory Sohn, CISO, FinCEN

   (U) OIG Finding 7: Password Settings Were Not Properly Configured to Lockout
   for a BPD System

   (U) OIG Recommendation: For BPD: Since BPD management updated the system
   configurations to remediate this finding, no recommendations were necessary.

           (U) Treasury Response: This finding has been remediated by BPD
           management. Status: Closed

           (U) Responsible Official: Jim McLaughlin, CISO and PAO, BPD




                                                                                        Page 31
Status of Prior Year Findings                                                                                                                          Appendix I

APPENDIX I – STATUS OF PRIOR YEAR FINDINGS


                                                                                  Recommendation(s)/
Finding #                  Prior Year Condition                                                                                         Status
                                                                                  Prior Year Management Response
Finding #1 – Financial     During Fiscal Year (FY) 2009, FMS issued a full        We recommend that FMS management:                     Implemented/Closed
Management Service         Authority to Operate (ATO) for two (2) systems
(FMS)                      reviewed. However, a full risk assessment was not    1. Complete the full certification and                  Both systems were
                           performed, and the security test and evaluation only    accreditation of the first FMS system                certified and accredited in
NIST Federal               included an assessment of the technical security        identified above by the estimated completion         accordance with the NIST
Information Processing     control families of the National Institute of           date tracked in the Plan of Actions &                Special Publication 800-
Standard (FIPS) 200        Standards and Technology (NIST) Special                 Milestones (POA&M).                                  37.
Minimum Security           Publication 800-53, Recommended Security Controls 2. Finalize the security assessment reporting
Control Baselines Were     for Federal Information Systems.                        process and reissue the full ATO for the
Not Sufficiently Tested                                                            second FMS system identified above.
or Implemented.
Finding #1 – Office of     As of June 30, 2009, the two (2) systems were not      We recommend that OTS management continue             Implemented/Closed
Thrift Supervision         fully accredited systems.                              with plans to resolve the security weakness
(OTS)                                                                             identified during the certification and               Both systems were
                                                                                  accreditation process for all OTS systems by the      certified and accredited in
NIST FIPS 200                                                                     end of the interim authorization period,              accordance with the NIST
Minimum Security                                                                  September 25, 2009 and continue with plans to         Special Publication 800-
Control Baselines Were                                                            grant a full authority to operate during the FY       37.
Not Sufficiently Tested                                                           2010 Federal Information Security Management
or Implemented                                                                    Act (FISMA) reporting period.
(Repeated)
Finding #2              At the conclusion of the FY 2008 FISMA audit, two         We recommend that OPTR management finalize            Implemented/Closed
                        (2) Treasury Directives and Publications related to       all of the directives and policies related to the
Policies Required by    the collection, use, sharing, disclosure, transfer, and   collection, use, sharing, disclosure, transfer, and   OPTR provided the signed
Office of Management    storage of personally identifiable information (PII)      storage of PII identified above. (Repeat              TD 25-08, dated
and Budget (OMB)        were not finalized. During the 2009 FISMA                 Recommendation)                                       December 22, 2009.
Memorandum 07-16 have reporting cycle, the Office of Privacy and Treasury
not been Finalized and  Records (OPTR) finalized Treasury Directive
Issued (Repeat Finding) Publication (TD P) 25-07, Privacy Impact
                        Assessment Manual; however, at the conclusion of
                        the FY 2009 FISMA Evaluation, Treasury Directive
                        (TD) 25-08, Safeguarding Against and Responding
                        to the Breach of Personally Identifiable Information,
                        was still in draft.




                                                                                                                                                            Page 32
Status of Prior Year Findings                                                                                                                     Appendix I

                                                                              Recommendation(s)/
Finding #                 Prior Year Condition                                                                                     Status
                                                                              Prior Year Management Response
Finding #3               At the conclusion of the FY 2008 FISMA audit, the    We recommend that DO information technology          Implemented/Closed
                         DO had not implemented the FDCC secure               (IT) management fully implement the FDCC
The Departmental Offices configuration baseline on all headquarters           secure baseline configurations on all headquarters   All FDCC security
(DO) Federal Desktop     workstations. As of the conclusion of the FY 2009    end-user workstations by the November 15, 2009       configurations were
Core Configuration       FISMA evaluation, we again noted that DO still had   due date outlined in the POA&M weakness.             applied to all headquarters
(FDCC) Image is Not      not implemented the FDCC secure configuration                                                             end-user workstations.
Fully Implemented        baseline on all workstations.
(Repeat Findings)
Finding #4               At the close of the 2009 FISMA reporting cycle,      We recommend that BPD management:                    Implemented/Closed
                         BPD was not using a SCAP validated tool to scan
The Bureau of Public     the BPD FDCC secure configuration baseline.          1. Continue with efforts to implement a SCAP-        FDCC baseline settings
Debt (BPD) is Not Using                                                          validated tool.                                   indicated a SCAP-
a Security Content                                                            2. Utilize a SCAP-validated tool to monitor the      validated tool was in use.
Automation Protocol                                                              BPD FDCC secure configuration baseline
(SCAP)                                                                           image.


Finding #5                FMS was not consistently managing POA&M’s           We recommend that FMS management:                    Partially
                          Estimate to Complete dates and Milestones for two                                                        Implemented/Open
FMS POA&M Estimate        (2) of the five (5) systems selected in our         1. Update the estimate to complete dates and
to Completion Dates       representative subset of FMS major applications and    milestones for each of the identified             Both systems’ POA&Ms
Were Not Consistently     general support systems.                               weaknesses to reflect current status.             were completed or updated
Updated in Accordance                                                         2. Provide additional oversight across all FMS       to accurately reflect
with FMS Policy.                                                                 systems to ensure that the POA&M process          “Estimate to Completion”
                                                                                 is managed in accordance with FMS,                and “Milestone” dates.
                                                                                 Treasury, and OMB policy and guidance.
                                                                                                                                   However, we identified
                                                                                                                                   additional POA&M
                                                                                                                                   weakness at FMS. See FY
                                                                                                                                   2010 Finding #3.




                                                                                                                                                       Page 33
Status of Prior Year Findings                                                                                                                    Appendix I

                                                                               Recommendation(s)/
Finding #                  Prior Year Condition                                                                                  Status
                                                                               Prior Year Management Response
Finding #6               The frequency of vulnerability scanning over one (1) We recommend that BPD Office of the                Implemented/Closed
                         of BPD’s systems was not in line with Treasury-       Information Technology (OIT) management:
Frequency of             wide policy and the control requirements outlined in                                                    BPD closed one of the
Vulnerability Assessment the system’s security plan. Currently, the system was 1. Continue follow-up efforts to resolve or       vulnerabilities identified in
Scanning at BPD Was      being scanned annually, while the minimum required        dispose of all potential vulnerabilities      FY 2009 and the other
Not in Line with Bureau frequency of vulnerability scanning specified by           identified during the recent vulnerability
                                                                                                                                 vulnerability has a
and Treasury Policy      Treasury policy and the control requirements              assessment.
                         outlined in the system’s security plan is at least    2. Review and update internal BPD bureau-         corrective action plan in
                         quarterly.                                                wide IT policies as appropriate.              place. In addition, BPD
                                                                               3. Conduct vulnerability scans on at least a      developed a bureau-wide
                                                                                   quarterly basis as required by TD P 85-01     IT policy, which addresses
                                                                                                                                 vulnerability scanning.
                                                                                                                                 Lastly, vulnerability scans
                                                                                                                                 were performed on a
                                                                                                                                 monthly basis starting
                                                                                                                                 March 2010.

Finding #7                 FinCEN had not performed an E-Authentication         We recommend that FinCEN management               Implemented/Closed
                           Risk Assessment for the one (1) reviewed system      perform an E-Authentication Risk Assessment
E-Authentication Risk      selected.                                            for the one (1) system selected at FinCEN for the The E-Authentication Risk
Assessment Was Not                                                              FY 2009 FISMA Evaluation.                         Assessment was conducted
Performed at the                                                                                                                  for the system.
Financial Crimes
Enforcement Network
(FinCEN)




                                                                                                                                                      Page 34
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                      Appendix II




                                                                                                                           	
APPENDIX II – THE DEPARTMENT OF THE TREASURY’S CONSOLIDATED RESPONSE TO OMB’S FISMA 2010
QUESTIONS FOR INSPECTORS GENERAL

The information included in Appendix II represents the Department of the Treasury’s consolidated responses to OMB’s FISMA 2010 questions for
Inspectors Generals. KPMG prepared responses to OMB questions based on an assessment of 15 information systems across 13 Treasury
components, excluding the IRS and TIGTA. A decision was made to inspect only one (1) OIG system every year. TIGTA performed audit
procedures over the IRS and its information systems and provided their answers to the Treasury OIG and KPMG for consolidation. The
information provided by TIGTA has not been subjected to KPMG audit procedures and, accordingly, we express no opinion on it.

S1: Certification and Accreditation
Status of Certification and             a.	 The Agency has established and is maintaining a certification and accreditation program that is generally
Accreditation Program [check one]          consistent with NIST’s and OMB’s FISMA requirements. Although improvement opportunities may have
                                            been identified by the OIG, the program includes the following attributes:
                                            1. Documented policies and procedures describing the roles and responsibilities of participants in the
                                                certification and accreditation process.
                                            2. Establishment of accreditation boundaries for agency information systems.
                                            3. Categorizes information systems.
                                            4. Applies applicable minimum baseline security controls.
                                            5. Assesses risks and tailors security control baseline for each system.
                                            6. Assessment of the management, operational, and technical security controls in the information system.
                                            7. Risks to Agency operations, assets, or individuals analyzed and documented in the system security plan,
                                              	




                                                risk assessment, or an equivalent document.
                                            8. The accreditation official is provided (i) the security assessment report from the certification agent
                                              	




                                                providing the results of the independent assessment of the security controls and recommendations for
                                                corrective actions; (ii) the plan of action and milestones from the information system owner indicating
                                                actions taken or planned to correct deficiencies in the controls and to reduce or eliminate vulnerabilities in
                                                the information system; and (iii) the updated system security plan with the latest copy of the risk
                                                assessment.
                                        b.	 The Agency has established and is maintaining a certification and accreditation program. However, the
                                            Agency needs to make significant improvements as noted below.
                                        c. The Agency has not established a certification and accreditation program.
1a. If b. checked above, check          1a(1) Certification and accreditation policy is not fully developed.




                                                                                                             

    areas that need significant         1a(2) Certification and accreditation procedures are not fully developed, sufficiently detailed or consistently
                              





    improvement:                               implemented.
                                        1a(3) Information systems are not properly categorized (FIPS 199/SP 800-60).
                                        1a(4) Accreditation boundaries for agency information systems are not adequately defined.




                                                                                                                                                       Page 35
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                Appendix II




                                                                                                                      	
                                       1a(5) Minimum baseline security controls are not adequately applied to information systems (FIPS 200/SP 800-
                                              53).
                                       1a(6) Risk assessments are not adequately conducted (SP 800-30).
                                       1a(7) Security control baselines are not adequately tailored to individual information systems (SP 800-30).
                                       1a(8) Security plans do not adequately identify security requirements (SP 800-18).
                                       1a(9) Inadequate process to assess security control effectiveness (SP 800-53A).
                                       1a(10) Inadequate process to determine risk to agency operations, agency assets, or individuals, or to authorize
                                              information systems to operate (SP 800-37).
                                       1a(11) Inadequate process to continuously track changes to information systems that may necessitate reassessment
                                              of control effectiveness (SP 800-37).
                                       1a(12) Other
                                              Explanation for Other:
   Comments:

S2: Configuration Management
Status of Security Configuration       a.	 The Agency has established and is maintaining a security configuration management program that is generally
Management Program [check one]             consistent with NIST's and OMB's FISMA requirements. Although improvement opportunities may have been
                                           identified by the OIG, the program includes the following attributes:
                                           1. Documented policies and procedures for configuration management.
                                           2. Standard baseline configurations.
                                           3. Scanning for compliance and vulnerabilities with baseline configurations.
                                           4. FDCC baseline settings fully implemented and/or any deviations from FDCC baseline settings fully
                                             	




                                               documented.
                                           5. Documented proposed or actual changes to the configuration settings.
                                           6. Process for the timely and secure installation of software patches.
                                       b. The Agency has established and is maintaining a security configuration management program. However, the
                                          Agency needs to make significant improvements as noted below.
                                       c. The Agency has not established a security configuration management program.
2a. If b. checked above, check         2a(1) Configuration management policy is not fully developed.




                                                                                                     

    areas that need significant       2a(2) Configuration management procedures are not fully developed or consistently implemented.
                              





                                                                                                                                       

    improvement:                       2a(3) Software inventory is not complete (NIST 800-53: CM-8).
                  





                                                                                                      

                                       2a(4) Standard baseline configurations are not identified for all software components (NIST 800-53: CM-8).




                                                                                                                                                 

                                       2a(5) Hardware inventory is not complete (NIST 800-53 CM-8).


                                                                                                       

                                       2a(6) Standard baseline configurations are not identified for all hardware components (NIST 800-53: CM-2).




                                                                                                                                                  

                                       2a(7) Standard baseline configurations are not fully implemented (NIST 800-53: CM-2).




                                                                                                                              

                                       2a(8) FDCC is not fully implemented (OMB) and/or all deviations are not fully documented.




                                                                                                                                  

                                                                                                                                                Page 36
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                          Appendix II

                                              2a(9) Software scanning capabilities are not fully implemented (NIST 800-53: RA-5, SI-2).
                                              2a(10) Configuration-related vulnerabilities have not been remediated in a timely manner (NIST 800-53: CM-4,
                                                     CM-6, RA-5, SI-2).
                                         2a(11) Patch management process is not fully developed (NIST 800-53: CM-3, SI-2).
                                              2a(12) Other
                                                      Explanation for Other:
Comments: TIGTA: The IRS has not completed corrective actions to resolve the software configuration management component of the IRS computer security
material weakness. Until the IRS has implemented adequate configuration management controls Agencywide, it cannot ensure the security and integrity of
system programs, files, and data. In March 2010, TIGTA reported that the IRS was not timely addressing high- and medium-risk system vulnerabilities that it
identified on Automated Collection System servers. In addition, during the 2010 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to
evaluate IRS email servers and found that the IRS is not taking timely actions to correct medium-risk security vulnerabilities identified through monthly scans on
its email servers. The IRS computer security material weakness relating to configuration management includes unresolved weaknesses in the IRS patch
management process. The IRS’s corrective action plan for resolving the patch management weaknesses indicates that corrective actions are still ongoing.
2b. Identify baselines reviewed:
2b(1) Software Name                    None
2b(2) Software Version                 None

S3: Incident Response and Reporting
Status of Incident Response &                 a.   The Agency has established and is maintaining an incident response and reporting program that is generally
Reporting Program [check one]                     consistent with NIST’s and OMB’s FISMA requirements. Although improvement opportunities may have
                                                   been identified by the OIG, the program includes the following attributes:
                                                   1. Documented policies and procedures for responding and reporting to incidents.
                                                   2. Comprehensive analysis, validation, and documentation of incidents.
                                                   3. When applicable, reports to US-CERT within established timeframes.
                                                   4. When applicable, reports to law enforcement within established timeframes.
                                                   5. Responds to and resolves incidents in a timely manner to minimize further damage.

                                              b. The Agency has established and is maintaining an incident response and reporting program. However, the
                                                  Agency needs to make significant improvements as noted below.
                                              c. The Agency has not established an incident response and reporting program.
3a. If b. checked above, check                3a(1) Incident response and reporting policy is not fully developed.
    areas that need significant               3a(2) Incident response and reporting procedures are not fully developed, sufficiently detailed or consistently
    improvement:                                    implemented.
                                              3a(3) Incidents were not identified in a timely manner (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
                                              3a(4) Incidents were not reported to US-CERT as required (NIST 800-53, 800-61, and OMB M-07-16, M-06-
                                                    19).



                                                                                                                                                           Page 37
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                      Appendix II

                                        3a(5) Incidents were not reported to law enforcement as required.
                                        3a(6) Incidents were not resolved in a timely manner (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
                                        3a(7) Incidents were not resolved to minimize further damage (NIST 800-53, 800-61, and OMB M-07-16, M-06-
                                                 19).
                                        3a(8) There is insufficient incident monitoring and detection coverage (NIST 800-53, 800-61, and OMB M-07-
                                                 16, M-06-19).
                                        3a(9) Other
                                                 Explanation for Other:
Comments: Treasury OIG: BPD did not report 4 of 13 incidents in the required timeframe. TTB did not report 2 of 14 in the required timeframe.

S4: Security Training
Status of Security Training Program       a.   The Agency has established and is maintaining a security training program that is generally consistent with
[check one]                                    NIST’s and OMB’s FISMA requirements. Although improvement opportunities may have been identified by
                                               the OIG, the program includes the following attributes:
                                               1. Documented policies and procedures for security awareness training.
                                               2. Documented policies and procedures for specialized training for users with significant information
                                                   security responsibilities.
                                               3. Appropriate training content based on the organization and roles.
                                               4. Identification and tracking of all employees with login privileges that need security awareness training.
                                               5. Identification and tracking of employees without login privileges that require security awareness training.
                                               6. Identification and tracking of all employees with significant information security responsibilities that
                                                   require specialized training.

                                          b. The Agency has established and is maintaining a security training program. However, the Agency needs to
                                             make significant improvements as noted below.
                                          c. The Agency has not established a security training program.
4a. If b. checked above, check            4a(1) Security awareness training policy is not fully developed.
    areas that need significant           4a(2) Security awareness training procedures are not fully developed, sufficiently detailed or consistently
    improvement:                                implemented.
                                          4a(3) Specialized security training policy is not fully developed.
                                          4a(4) Specialized security awareness training procedures are not fully developed or sufficiently detailed (SP 800-
                                                50, SP 800-53).
                                          4a(5) Training material for security awareness training does not contain appropriate content for the Agency (SP
                                                800-50, SP 800-53).
                                          4a(6) Identification and tracking of employees with login privileges that require security awareness training is not
                                                adequate (SP 800-50, SP 800-53).
                                          4a(7) Identification and tracking of employees without login privileges that require security awareness training is



                                                                                                                                                       Page 38
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                    Appendix II

                                             not adequate (SP 800-50, SP 800-53).
                                      4a(8) Identification and tracking of employees with significant security information security responsibilities is
                                             not adequate (SP 800-50, SP 800-53).
                                      4a(9) Training content for individuals with significant information security responsibilities is not adequate (SP
                                             800-53, SP 800-16).
                                      4a(10) Less than 90 percent of employees with login privileges attended security awareness training in the past
                                             year.
                                      4a(11) Less than 90 percent of employees with significant security responsibilities attended security awareness
                                             training in the past year.
                                      4a(12) Other: TIGTA:
                                             (1) Not all contractors with staff-like access at the IRS were provided with security awareness training.
                                            (2) The IRS needs to improve identification and tracking of employees and contractors with significant
                                                 security responsibilities.
                                             Explanation for Other: TIGTA:
                                             (1) In June 2010, the GAO reported that the IRS did not provide security awareness training for all IRS
                                                 contractors who are provided unescorted physical access to its facilities containing taxpayer receipts
                                                 and information. Based on the GAO’s finding, the IRS stated it updated its policy as of September 7,
                                                 2010, to require all contractors to take security awareness training suitable to their type of access, and
                                                 modified its contractor tracking system to track the completion of the required training modules for
                                                 each contractor during the Fiscal Year 2011 FISMA evaluation period.
                                             (2) The TIGTA was unable to definitively determine the percentage of IRS employees and contractors
                                                 with significant security responsibilities that completed specialized security training in the past year.
                                                 Until the IRS completes several actions, the TIGTA cannot verify the population of IRS employees
                                                 and contractors that require specialized training or the numbers of those that completed their required
                                                 training.
  Comments:




                                                                                                                                                     Page 39
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                             Appendix II

S5: POA&M

Status of Plan of Action &            a.  The Agency has established and is maintaining a POA&M program that is generally consistent with NIST’s
Milestones (POA&M) Program                and OMB’s FISMA requirements and tracks and monitors known information security weaknesses. Although
[check one]                               improvement opportunities may have been identified by the OIG, the program includes the following
                                          attributes:
                                          1. Documented policies and procedures for managing all known IT security weaknesses.
                                          2. Tracks, prioritizes, and remediates weaknesses.
                                          3. Ensures remediation plans are effective for correcting weaknesses.
                                          4. Establishes and adheres to reasonable remediation dates.
                                          5. Ensures adequate resources are provided for correcting weaknesses.
                                          6. Program officials and contractors report progress on remediation to CIO on a regular basis, at least
                                               quarterly, and the CIO centrally tracks, maintains, and independently reviews/validates the POAM
                                               activities at least quarterly.
                                      b. The Agency has established and is maintaining a POA&M program that tracks and remediates known
                                         information security weaknesses. However, the Agency needs to make significant improvements as noted
                                          below.
                                      c. The Agency has not established a POA&M program.
5a. If b. checked above, check        5a(1) POA&M policy is not fully developed.
    areas that need significant       5a(2) POA&M procedures are not fully developed, sufficiently detailed or consistently implemented.
    improvement:
                                     5a(3) POA&Ms do not include all known security weaknesses (OMB M-04-25).
                                      5a(4) Remediation actions do not sufficiently address weaknesses (NIST SP 800-53, Rev 3, Sect. 3.4 Monitoring
                                             Security Controls).
                                      5a(5) Initial dates of security weaknesses are not tracked (OMB M-04-25).
                                      5a(6) Security weaknesses are not appropriately prioritized (OMB M-04-25).
                                      5a(7) Estimated remediation dates are not reasonable (OMB M-04-25).
                                      5a(8) Initial target remediation dates are frequently missed (OMB M-04-25).
                                     5a(9) POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3, Control CA-5, & OMB M-04-25).
                                      5a(10) Costs associated with remediating weaknesses are not identified (NIST SP 800-53, Rev. 3, Control PM-3 &
                                              (OMB M-04-25).
                                      5a(11) Agency CIO does not track and review POA&Ms (NIST SP 810-53m, Rev. 3, Control CA-5 & (OMB M-
                                              04-25).
                                      5a(12) Other: TIGTA:
                                             IRS security weaknesses were closed in POA&Ms before effective corrective action was taken.
                                             Explanation for Other: TIGTA:
                                             In August 2009, the TIGTA reported that the IRS had prematurely reported resolution of six security
                                             control vulnerabilities for the Customer Accounts Data Engine in POA&Ms before effective corrective



                                                                                                                                             Page 40
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                       Appendix II

                                                    action was taken. In May 2010, the TIGTA reported that the IRS closed four POA&M weaknesses
                                                    identified in the Modernized e-File system before effective corrective action was taken. During the 2010
                                                    FISMA evaluation period, the IRS took steps to improve its POA&M procedures; however, the TIGTA did
                                                    not find information to indicate that required verifications were performed before closing these weaknesses
                                                    as per IRS policy.
   Comments: Treasury OIG: FMS did not record security vulnerabilities timely in Trusted Agent FISMA (TAF) for 2 of the 3 systems. OCC did not update,
   submit, and include all necessary elements of the reviewed system’s POA&M.

   TIGTA: In May 2010, the TIGTA reported that security weaknesses identified by the IRS at seven of the eight contractor facilities we sampled were not
   maintained in POA&Ms as required by the FISMA. In addition, during the Fiscal Year 2010 FISMA evaluation period, the TIGTA completed fieldwork on an
   audit to evaluate IRS email servers and found that medium-risk weaknesses the IRS repeatedly detected on its email servers through monthly scans were not
   posted to POA&Ms.

S6: Remote Access Management
Status of Remote Access Program             a.   The Agency has established and is maintaining a remote access program that is generally consistent with
[check one]                                     NIST’s and OMB’s FISMA requirements. Although improvement opportunities may have been identified by
                                                 the OIG, the program includes the following attributes:
                                                 1. Documented policies and procedures for authorizing, monitoring, and controlling all methods of remote
                                                     access.
                                                 2. Protects against unauthorized connections or subversion of authorized connections.
                                                 3. Users are uniquely identified and authenticated for all access.
                                                 4. If applicable, multi-factor authentication is required for remote access.
                                                 5. Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote electronic
                                                     authentication, including strength mechanisms.
                                                 6. Requires encrypting files sensitive files transmitted across public networks or stored on mobile devices
                                                     and removable media such as CDs and flash drives.
                                                 7. Remote access sessions are timed-out after a maximum of 30 minutes of inactivity after which re-
                                                     authentication is required.

                                            b. The Agency has established and is maintaining a remote access program. However, the Agency needs to make
                                                significant improvements as noted below.
                                            c. The Agency has not established a program for providing secure remote access.
6a. If b. checked above, check              6a(1) Remote access policy is not fully developed.
    areas that need significant             6a(2) Remote access procedures are not fully developed, sufficiently detailed or consistently implemented.
    improvement:                            6a(3) Telecommuting policy is not fully developed (NIST 800-46 Section 5.1).
                                            6a(4) Telecommuting procedures are not fully developed or sufficiently detailed (NIST 800-46 Section 5.4).



                                                                                                                                                        Page 41
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                    Appendix II

                                           6a(5)    Agency cannot identify all users who require remote access (NIST 800-46 Section 4.2, Section 5.1).
                                           6a(6)    Multi-factor authentication is not properly deployed (NIST 800-46 Section 2.2, Section 3.3).
                                           6a(7)    Agency has not identified all remote devices (NIST 800-46 Section 2.1).
                                           6a(8)    Agency has not determined all remote devices and/or end user computers have been properly secured
                                                    (NIST 800-46 Section 3.1 and Section 4.2).
                                           6a(9)    Agency does not adequately monitor remote devices when connected to the agency’s networks remotely
                                                    (NIST 800-46 Section 3.2).
                                           6a(10)   Lost or stolen devices are not disabled and appropriately reported (NIST 800-46 Section 4.3, US-CERT
                                                    Incident Reporting Guidelines).
                                           6a(11)   Remote access rules of behavior are not adequate (NIST 800-53, PL-4).
                                           6a(12)   Remote access user agreements are not adequate (NIST 800-46 Section 5.1 & NIST 800-53, PS-6).
                                           6a(13)   Other
                                                    Explanation for Other:

S7: Identity and Access Management
Status of Account and Identity             a.   The Agency has established and is maintaining an account and identity management program that is generally
Management Program [check one]                  consistent with NIST’s and OMB’s FISMA requirements and identifies users and network devices. Although
                                                improvement opportunities may have been identified by the OIG, the program includes the following
                                                attributes:
                                                1. Documented policies and procedures for account and identity management.
                                                2. Identifies all users, including federal employees, contractors, and others who access Agency systems.
                                                3. Identifies when special access requirements (e.g. multi-factor authentication) are necessary.
                                                4. If multi-factor authentication is in use, it is linked to the Agency’s PIV program.
                                                5. Ensures that the users are granted access based on needs and separation of duties principles.
                                                6. Identifies devices that are attached to the network and distinguishes these devices from users.
                                                7. Ensures that accounts are terminated or deactivated once access is no longer required.
                                           b. The Agency has established and is maintaining an account and identity management program that identifies
                                              users and network devices. However, the Agency needs to make significant improvements as noted below.
                                           c. The Agency has not established an account and identity management program.
7a. If b. checked above, check areas       7a(1) Account management policy is not fully developed.
    that need significant                 7a(2) Account management procedures are not fully developed, sufficiently detailed or consistently implemented.
    improvement:                           7a(3) Active directory is not properly implemented (NIST 800-53, AC-2).
                                           7a(4) Other non-Microsoft account management software is not properly implemented (NIST 800-53, AC-2).
                                           7a(5) Agency cannot identify all User and Non-User accounts (NIST 800-53, AC-2).
                                           7a(6) Accounts are not properly issued to new users (NIST 800-53, AC-2).
                                          7a(7) Accounts are not properly terminated when users no longer require access (NIST 800-53, AC-2).



                                                                                                                                                    Page 42
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                           Appendix II

                                              7a(8) Agency does not use multi-factor authentication when required (NIST 800-53, IA-2).
                                              7a(9) Agency has not adequately planned for implementation of PIV for logical access (HSPD-12, FIPS 201,
                                                      OMB M-05-24, OMB M-07-06, OMB M-08-01).
                                              7a(10) Privileges granted are excessive or result in capability to perform conflicting functions (NIST 800-53, AC-
                                                     2, AC-6).
                                              7a(11) Agency does not use dual accounts for administrators (NIST 800-53, AC-5, AC-6).
                                              7a(12) Network devices are not properly authenticated (NIST 800-53, IA-3).
                                         7a(13) Other
                                                      Explanation for Other: Treasury OIG:
                                                      Review of Inactive Accounts and Annual Reviews Are Not Being Consistently Conducted
                                                      Physical Access to Restricted Areas Is Not Properly Reviewed and Administered
  Comments: Treasury OIG: BEP did not document its reviews of user accounts for the selected system in accordance with their system security plan. DO’s
  first system reviewed did not disable users after 90 days of inactivity. OCC’s system reviewed lacked an automated capability to disable inactive account per
  their policy. OIG’s system reviewed had accounts that had not been disabled after 90 days of inactivity. OTS did not review user access to the system
  reviewed on a regular basis. FinCEN’s physical access to their data center was not reviewed annually. The OIG’s physical access to their data center was not
  reviewed annually.

  TIGTA: The IRS has not completed corrective actions to resolve the component of the IRS computer security material weakness relating to access controls.
  While the IRS’s corrective action plan for this material weakness indicates progress has been made, corrective actions are still ongoing to ensure that effective
  access controls are implemented IRS-wide. In July 2009, the TIGTA reported that, in a sample of 7 IRS systems, 53 of 376 contractors had active user
  accounts but did not have a business need to access these systems. The TIGTA also identified 15 contractors whose system access was not deleted in a timely
  manner upon separation from the contract with the IRS. In addition, in March 2010, the TIGTA reported that a system was not configured to remove user
  accounts in accordance with IRS security policy. In July 2009, the TIGTA reported that, from a sample of 7 IRS systems, 12 system development contractors
  had access and full privileges to the production environment of the system on which they worked, in violation of the IRS policy on separation of duties. In
  addition, 39 system administration contractors also had database administrator privileges. In addition, in March 2010, the TIGTA reported that 6 of 109
  sampled employees’ system privileges on the Automated Collection System were not restricted to only those privileges needed to perform assigned duties. In
  addition, 58 employees had unneeded privileges that allowed them the authority to create, modify, or delete the system audit trails.

S8: Continuous Monitoring Management
Status of Continuous Monitoring              a.   The Agency has established an entity-wide continuous monitoring program that assesses the security state of
Program [check one]                               information systems that is generally consistent with NIST’s and OMB’s FISMA requirements. Although
                                                  improvement opportunities may have been identified by the OIG, the program includes the following




                                                                                                                                                            Page 43
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                               Appendix II

                                          attributes:
                                          1. Documented policies and procedures for continuous monitoring.
                                          2. Documented strategy and plans for continuous monitoring, such as vulnerability scanning, log monitoring,
                                               notification of unauthorized devices, sensitive new accounts, etc.
                                          3. Ongoing assessments of selected security controls (system-specific, hybrid, and common) that have been
                                               performed based on the approved continuous monitoring plans.
                                          4. Provides system authorizing officials and other key system officials with security status reports covering
                                               updates to security plans and security assessment reports, as well as POA&M additions.
                                      b. The Agency has established an entity-wide continuous monitoring program that assesses the security state of
                                         information systems. However, the Agency needs to make significant improvements as noted below.
                                      c. The Agency has not established a continuous monitoring program.
8a. If b. checked above, check        8a(1) Continuous monitoring policy is not fully developed.
    areas that need significant       8a(2) Continuous monitoring procedures are not fully developed or consistently implemented.
    improvement:                      8a(3) Strategy or plan has not been fully developed for entity-wide continuous monitoring (NIST 800-37).
                                      8a(4) Ongoing assessments of selected security controls (system-specific, hybrid, and common) have not been
                                              performed (NIST 800-53, NIST 800-53A).
                                      8a(5) The following were not provided to the system authorizing official or other key system officials: security
                                              status reports covering continuous monitoring results, updates to security plans, security assessment
                                              reports, and POA&Ms (NIST 800-53, NIST 800-53A).
                                      8a(6) Other: TIGTA:
                                             The IRS has not resolved its computer security material weakness relating to audit logging.
                                              Explanation for Other:
                                              Treasury OIG: BEP did not document reviews of audit logs for the system we reviewed in accordance
                                              with NIST SP 800-53 and Treasury policy.

                                             TIGTA:
                                             The IRS corrective action plan for resolving the audit logging component of the IRS computer security
                                             material weakness indicates that there are still ongoing corrective actions. Until corrective actions are
                                             completed, the IRS cannot effectively monitor key networks and systems to identify unauthorized activities
                                             and inappropriate system configurations.
                                             In July 2010, the TIGTA reported that the IRS has not taken sufficient actions or allocated sufficient
                                             resources to resolve the audit trail material weakness. Our review of 20 major systems found that events
                                             were not being adequately captured and reviewed on many databases, applications, and operating systems
                                             because: 1) very few systems have audit plans, 2) the IRS did not have adequate event capturing and report
                                             generating software tools, 3) audit reports were not being generated, and 4) the IRS determined that
                                             capturing required events could hurt system performance.



                                                                                                                                                Page 44
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                     Appendix II

S9: Contingency Planning
Status of Contingency Planning             a.   The Agency established and is maintaining an entity-wide business continuity/disaster recovery program that
Program [check one]                             is generally consistent with NIST’s and OMB’s FISMA requirements. Although improvement opportunities
                                                may have been identified by the OIG, the program includes the following attributes:
                                                1. Documented business continuity and disaster recovery policy providing the authority and guidance
                                                     necessary to reduce the impact of a disruptive event or disaster.
                                                2. The agency has performed an overall Business Impact Assessment.
                                                3. Development and documentation of division, component, and IT infrastructure recovery strategies, plans,
                                                     and procedures.
                                                4. Testing of all system-specific contingency plans.
                                                5. The documented business continuity and disaster recovery plans are ready for implementation.
                                                6. Development of training, testing, and exercises (TT&E) approaches.
                                                7. Performance of regular ongoing testing or exercising of continuity/disaster recovery plans to determine
                                                     effectiveness and to maintain current plans.
                                           b. The Agency has established and is maintaining an entity-wide business continuity/disaster recovery program.
                                              However, the Agency needs to make significant improvements as noted below.
                                           c. The Agency has not established a business continuity/disaster recovery program.
9a. If b. checked above, check areas       9a(1) Contingency planning policy is not fully developed.
    that need significant                  9a(2) Contingency planning procedures are not fully developed or consistently implemented.
    improvement:                           9a(3) An overall business impact assessment has not been performed (NIST SP 800-34).
                                           9a(4) Development of organization, component, or infrastructure recovery strategies and plans has not been
                                                  accomplished (NIST SP 800-34).
                                           9a(5) A business continuity/disaster recovery plan has not been developed (FCD1, NIST SP 800-34).
                                           9a(6) A business continuity/disaster recovery plan has been developed, but not fully implemented (FCD1, NIST
                                                  SP 800-34).
                                           9a(7) System contingency plans missing or incomplete (FCD1, NIST SP 800-34, NIST SP 800-53).
                                           9a(8) Critical systems contingency plans are not tested (FCD1, NIST SP 800-34, NIST SP 800-53).
                                           9a(9) Training, testing, and exercises approaches have not been developed (FCD1, NIST SP 800-34, NIST SP
                                                  800-53).
                                           9a(10) Training, testing, and exercises approaches have been developed, but are not fully implemented (FCD1,
                                                  NIST SP 800-34, NIST SP 800-53).
                                           9a(11) Disaster recovery exercises were not successful (NIST SP 800-34).
                                           9a(12) After-action plans did not address issues identified during disaster recovery exercises (FCD1, NIST SP
                                                  800-34).
                                           9a(13) Critical systems do not have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                                           9a(14) Alternate processing sites are subject to same risks as primary sites (FCD1, NIST SP 800-34, NIST SP 800-
                                                  53).



                                                                                                                                                     Page 45
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                              Appendix II

                                      9a(15)   Backups of information are not performed in a timely manner (FCD1, NIST SP 800-34, NIST SP 800-53).
                                      9a(16)   Backups are not appropriately tested (FCD1, NIST SP 800-34, NIST SP 800-53).
                                      9a(17)   Backups are not properly secured and protected (FCD1, NIST SP 800-34, NIST SP 800-53).
                                      9a(18)   Other: TIGTA:
                                              The IRS has made significant progress, but has not resolved its material weakness relating to disaster
                                               recovery controls.
                                               Explanation for Other: TIGTA:
                                               The IRS has not yet fully implemented adequate processes to ensure disaster recovery capabilities are
                                               implemented IRS-wide. While the IRS’s material weakness corrective action plan indicates progress has
                                               been made in mitigating disaster recovery issues, corrective actions are still ongoing.
  Comments:




                                                                                                                                               Page 46
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                 Appendix II


S10: Contractor Systems
Status of Agency Program to           a.  The Agency has established and maintains a program to oversee systems operated on its behalf by contractors
Oversee Contractor Systems                or other entities. Although improvement opportunities may have been identified by the OIG, the program
[check one]                               includes the following attributes:
                                          1. Documented policies and procedures for information security oversight of systems operated on the
                                               Agency’s behalf by contractors or other entities of the Agency obtains sufficient assurance that security
                                               controls of systems operated by contractors or others on its behalf are effectively implemented and comply
                                               with federal and agency guidelines.
                                          2. A complete inventory of systems operated on the Agency’s behalf by contractors or other entities.
                                          3. The inventory identifies interfaces between these systems and Agency-operated systems.
                                          4. The agency requires agreements (MOUs, Interconnect Service Agreements, contracts, etc.) for interfaces
                                               between these systems and those that it owns and operates.
                                          5. The inventory, including interfaces, is updated at least annually.
                                          6. Systems that are owned or operated by contractors or entities are subject to and generally meet NIST and
                                               OMB’s FISMA requirements.
                                      b. The Agency has established and maintains a program to oversee systems operated on its behalf by contractors
                                         or other entities. However, the Agency needs to make significant improvements as noted below.
                                      c. The Agency does not have a program to oversee systems operated on its behalf by contractors or other entities.
10a.If (b) checked above, check       10a(1) Policies to oversee systems operated on the Agency’s behalf by contractors or other entities are not fully
    areas that need significant               developed.
    improvement:                      10a(2) Procedures to oversee systems operated on the Agency’s behalf by contractors or other entities are not fully
                                              developed or consistently implemented.
                                     10a(3) The inventory of systems owned or operated by contractors or other entities is not sufficiently complete.
                                      10a(4) The inventory does not identify interfaces between contractor/entity-operated systems to Agency-owned
                                              and operated systems.
                                      10a(5) The inventory of contractor/entity-operated systems, including interfaces, is not updated at least annually.
                                      10a(6) Systems owned or operated by contractors and entities are not subject to NIST and OMB’s FISMA
                                              requirements (e.g., certification and accreditation requirements).
                                      10a(7) Systems owned or operated by contractors and entities do not meet NIST and OMB’s FISMA requirements
                                              (e.g., certification and accreditation requirements).
                                      10a(8) Interface agreements (e.g., MOUs) are not properly documented, authorized, or maintained,
                                      10a(9) Other
                                              Explanation for Other:




                                                                                                                                                  Page 47
The Department of the Treasury’s Consolidated Response to OMB’s FISMA 2010 Questions for Inspectors General                                       Appendix II

  Comments: TIGTA: The IRS was unable to provide the TIGTA a definitive inventory of contractor managed systems and agreed that this inventory required
  improvement. In May 2010, the TIGTA reported that current processes were not effective at identifying all contractors who receive IRS taxpayer data and
  therefore are subject to required security reviews. The IRS has implemented an automated mechanism to identify all contractors that have access to sensitive
  data. This information will be available to target sites for security reviews during the Fiscal Year 2012 review cycle. The IRS stated it will also use this
  information to determine which of these meet the definition of a contractor system.




                                                                                                                                                        Page 48
The Department of the Treasury FISMA Performance Audit - 2010                                Appendix III

APPENDIX III – APPROACH TO SELECTION OF SUBSET OF SYSTEMS

In Fiscal Year (FY) 2010, KPMG employed a risk-based approach to select a representative subset of
United States Department of the Treasury (Treasury) information systems for the Federal Information
Security Management Act (FISMA) audit. KPMG used the system inventory contained within Treasury’s
Trusted Agent FISMA (TAF) to identify the population and stratified the population by bureau and office
to select a representative subset of non-IRS Treasury applications. KPMG performed procedures
throughout the fieldwork phase to determine the completeness and accuracy of the non-IRS Treasury
inventory of information systems.

Based on historical trends in the Treasury systems inventory and past reviews, KPMG selected 13.5
percent of Treasury’s non-IRS information systems. KPMG selected the representative subset of non-IRS
information systems from TAF on April 14, 2010, prior to the Treasury’s FISMA year-end on June 30,
2010. This advanced selection allowed KPMG sufficient time to complete planning and prepare for the
fieldwork phase, which commenced immediately after Treasury’s FISMA year-end.

In selecting the subset, KPMG stratified the full population of Treasury major applications and general
support systems by bureau and by Federal Information Processing Standards (FIPS) 199 system impact
level. KPMG used a risk-based approach to select systems out of each stratum. KPMG considered the
following factors to select systems:

   Total number of systems per bureau
   Systems at smaller bureaus not historically included in FISMA audits or evaluations
   Number of systems at each bureau with a FIPS system impact level of “High”
   Date of the system’s Authority to Operate
   Number of open issues per system
   Number of issues recently closed per system
   Number of issues identified in previous FISMA audits, FISMA evaluations, and other recent Office of
    the Inspector General reviews, and the
   Availability of users to access the system using the Internet.

Lastly, the total number of financial systems selected in the representative subset did not exceed the
percentage of systems the financial systems represent in the Treasury inventory of information systems.
KPMG defined financial systems as those information systems that were designated as “Financial”
systems in the Treasury’s TAF system.

Based on KPMG’s analysis of the Treasury inventory of information systems as of April 14, 2010, we
noted Treasury’s inventory included 186 major applications and general support systems. The following
table provides KPMG’s analysis of the composition of the Treasury’s inventory of major applications and
general support systems.

                                   Total         IRS      Non-IRS  Non-IRS Financial Systems
     Major Applications                    133         53       80                         39
     General Support Systems                53         21       32                          4
     Total                                 186         74      112                         43

From the analysis above, KPMG determined that IRS systems comprised 40 percent of the total
population of Major Applications and General Support systems, and Non-IRS systems accounted for 60



                                                                                                   Page 49
The Department of the Treasury FISMA Performance Audit - 2010                                                 Appendix III

percent. Applying the subset size percentage of 13.5 percent to the total population of 186 yielded a total
subset size of 25 systems. When the IRS to Non-IRS weighting was applied to this total, the resulting
sizes for the IRS and Non-IRS subsets were 10 and 15, respectively.

KPMG considered the ratio of Major Applications and General Support Systems as well as the ratio of
financial to non-financial information systems. Considering these ratios, KPMG judgmentally selected a
representative subset of information systems for testing during the 2010 FISMA audit. Based on these
factors, KPMG determined the following composition for the representative subset of Non-IRS Major
Applications and General Support Systems for the FY 2010 FISMA audit:

     Total Selected                                                                                           15
     Total Major Applications                                                                                 9
     Total General Support Systems                                                                            6
     Total Systems with a FIPS 199 System Impact Level of “High”                                              6
     Total Systems with a FIPS 199 System Impact Level of “Moderate”                                          9
     Total Systems with a FIPS 199 System Impact Level of “Low”                                               0
     Total Systems Designated as Financial                                                                    6

KPMG further stratified the number of information systems by each bureau to determine the total
percentage of information systems at each Non-IRS bureau, based on the total population of all Non-IRS
information systems. KPMG used this information as a baseline to determine the total number of systems
to select at each bureau or office:

        Bureau            Total Systems          Percentage of Total Non-IRS               Total Number of Non-
                                                         Population                          IRS Systems to be
                                                                                                   Selected
     BEP                          5                             4%                                    1
     BPD                         14                            13%                                    2
     CDFI Fund                    3                             3%                              1 (see note 1)
     DO                          23                            21%                                    2
     FinCEN                       5                             4%                                    1
     FMS                         31                            28%                                    3
     Mint                        10                            9%                                     1
     OCC                         9                             8%                                     1
     OIG                         1                             1%                           1 (see notes 1 and 2)
     OTS                         7                             6%                                     1
     TIGTA                       2                             2%                               0 (see note 2)
     TTB                         2                             2%                               1 (see note 1)
     Total                      112                        100% (note 3)                              15
       (Note 1: Using the stratification methodology, we initially did not select a system at these agencies. However, 

       using our risk-based methodology, KPMG selected at least one system for each of these bureaus.)

       (Note 2: A decision was made by the OIG to inspect only one (1) OIG system every year.)

       (Note 3: Percentages do not sum to 100% due to rounding.)





                                                                                                                      Page 50
The Department of the Treasury FISMA Performance Audit - 2010                                   Appendix IV

APPENDIX IV – SELECTED SECURITY CONTROL CLASSES AND FAMILIES

Federal Information Security Management Act (FISMA) directs the National Institute of Standards and
Technology (NIST) to develop and issue standards, guidelines, and other publications to assist federal
agencies in defining minimum security requirements for non-national security systems used by agencies.
NIST has developed such standards and guidelines as part of its implementation of FISMA. KPMG based
its security evaluation on the security controls defined within NIST Special Publication 800-53 Revision
2, Recommended Security Control for the Federal Information Systems. NIST publications define a
framework for protecting the confidentiality, integrity, and availability of federal information and
information systems consisting of three general classes of controls (i.e., management, operational, and
technical).

Tables on the following pages delineate the specific security controls KPMG performed in accordance
with NIST Special Publication 800-53. KPMG selected specific test procedures that were applicable to
the computing environment; therefore, not all available security controls within each control family were
performed.

Management Controls

Management security controls for information systems focus on the management of risk and the
management of information system security.

KPMG assessed the following management control areas:

       Certification, Accreditation, and Security Assessments (CA)
       Planning (PL)
       Risk Assessment (RA)
       System and Services Acquisition (SA)

Certification, Accreditation, and Security Assessments:

The organization develops, disseminates, and periodically reviews/updates (i) formal, documented,
security assessment and certification and accreditation policies that address purpose, scope, roles,
responsibilities, management commitment, coordination among organizational entities, and compliance
and (ii) formal, documented procedures to facilitate the implementation of the security assessment,
certification and accreditation policies, associated assessment certification, and accreditation controls.

                         Security Controls     Title
                         CA-2                  Security Assessments
                         CA-4                  Security Certification
                         CA-5                  Plan of Action and Milestone
                         CA-6                  Security Accreditation

Planning:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
security planning policy that addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the security planning policy and associated security planning controls.



                                                                                                      Page 51
The Department of the Treasury FISMA Performance Audit - 2010                               Appendix IV

                        Procedure            Title
                        PL-2                 System Security Plan
                        PL-3                 System Security Plan Update

Risk Assessment:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented risk
assessment policy that addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the risk assessment policy and associated risk assessment controls.

                        Procedure            Title
                        RA-2                 Security Categorization
                        RA-3                 Risk Assessment
                        RA-5                 Vulnerability Scanning

System and Services Acquisition:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
system and services acquisition policy that includes information security considerations and that
addresses purpose, scope, roles, responsibilities, management commitment, coordination among
organizational entities, and compliance and (ii) formal, documented procedures to facilitate the
implementation of the system and services acquisition policy and associated system and services
acquisition controls.

                        Procedure            Title
                        SA-7                 User Installed Software


Operational Controls

The operational controls address security methods that focus on mechanisms that primarily are
implemented and executed by people (as opposed to systems).

KPMG assessed the following Operational control areas:

       Configuration Management (CM)
       Contingency Planning (CP)
       Maintenance (MA)
       Media Protection (MP)
       Physical and Environmental Protection (PE)

Configuration Management:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
configuration management policy that addresses purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the configuration management policy and associated
configuration management controls.



                                                                                                  Page 52
The Department of the Treasury FISMA Performance Audit - 2010                               Appendix IV


                        Procedure            Title
                        CM-2                 Baseline Configuration

Contingency Planning:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
contingency planning policy that addresses purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the configuration management policy and associated
configuration management controls.

                        Procedure            Title
                        CP-2                 Contingency Plan
                        CP-4                 Contingency Plan Testing and
                                             Exercises
                        CP-5                 Contingency Plan Update

Maintenance:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
information system maintenance policy that addresses purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the information system maintenance policy and associated
system maintenance controls.

                        Procedure            Title
                        MA-5                 Maintenance Personnel

Media Protection:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
information system media protection policy that addresses purpose, scope, roles, responsibilities,
management commitment, coordination among organizational entities, and compliance and (ii) formal,
documented procedures to facilitate the implementation of the information system media protection
policy and associated system media protection controls.

                        Procedure            Title
                        MP-6                 Media Sanitization and Disposal

Physical and Environmental Protection:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
information system physical and environmental protection policy that addresses purpose, scope, roles,
responsibilities, management commitment, coordination among organizational entities, and compliance
and (ii) formal, documented procedures to facilitate the implementation of the information system
physical and environmental protection policy and associated system physical and environmental
protection controls.




                                                                                                 Page 53
The Department of the Treasury FISMA Performance Audit - 2010                                  Appendix IV

                         Procedure            Title
                         PE-2                 Physical Access Authorizations
                         PE-3                 Physical Access Control


Technical Controls

Technical security controls for information systems focus on information systems that are primarily
implemented and executed by the information system through mechanisms contained in the hardware,
software, or firmware of the system.

KPMG assessed the following Technical control areas:

       Access Control (AC)
       Audit and Accountability (AU)
       Identification and Authentication (IA)
       System and Communication Protection (SC)

Access Control:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
access control policy that addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the access control policy and associated access controls.

                         Procedure            Title
                         AC-2                 Account Management
                         AC-7                 Unsuccessful Login Attempts

Audit and Accountability:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
audit and accountability policy that addresses purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the audit and accountability policy and associated audit and
accountability controls.

                         Procedure            Title
                         AU-2                 Auditable Events
                         AU-6                 Audit Monitoring, Analysis, and
                                              Reporting

Identification and Authentication:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
identification and authentication policy that addresses purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the identification and authentication policy and associated
identification and authentication controls.


                                                                                                    Page 54
The Department of the Treasury FISMA Performance Audit - 2010                             Appendix IV


                       Procedure            Title
                       IA-2                 User Identification and
                                            Authentication
                       IA-4                 Identifier Management

System and Communication Protection:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
system and communications protection policy that addresses purpose, scope, roles, responsibilities,
management commitment, coordination among organizational entities, and compliance and (ii) formal,
documented procedures to facilitate the implementation of the system and communications protection
policy and associated system and communications protection controls.

                        Procedure           Title
                        SC-13               Use of Cryptography




                                                                                                Page 55
The Department of the Treasury FISMA Performance Audit - 2010                      Appendix V

APPENDIX V – LIST OF ACRONYMS 


       Acronym                                                Definition
AC                         Access Control
ACIOCS                     Associate CIO for Cyber Security
ATO                        Authority to Operate
AU                         Audit and Accountability
BEP                        Bureau of Engraving and Printing
BPD                        Bureau of the Public Debt
CA                         Certification, Accreditation, and Security Assessment
CDFI                       Community Development Financial Institution
CIO                        Chief Information Officer
CIP                        Critical Infrastructure Protection
CISO                       Chief Information Security Officer
CM                         Configuration Management
CP                         Contingency Planning
CSS                        Cyber Security Sub-Council
DO                         Departmental Offices
FDCC                       Federal Desktop Core Configuration
FinCEN                     Financial Crimes Enforcement Network
FIPS                       Federal Information Processing Standards
FISMA                      Federal Information Security Management Act
FMS                        Financial Management Service
FY                         Fiscal Year
GAGAS                      Generally Accepted Government Auditing Standards
IA                         Identification and Authentication
IG                         Inspector General
IRS                        Internal Revenue Service
ISSO                       Information System Security Officer
IT                         Information Technology
KPMG                       KPMG LLP
LAN                        Local Area Network
MA                         Maintenance
Mint                       United States Mint
MP                         Media Protection
NIST                       National Institute of Standards and Technology
OCC                        Office of the Comptroller of the Currency
OCIO                       Office of the Chief Information Officer
OIG                        Office of Inspector General
OIT                        Office of Information Technology
OMB                        Office of Management and Budget



                                                                                       Page 56
The Department of the Treasury FISMA Performance Audit - 2010                            Appendix V

      Acronym                                               Definition
OPTR                       Office of Privacy and Treasury Records
OTS                        Office of Thrift Supervision
PE                         Physical and Environmental Protection
PII                        Personally Identifiable Information
PL                         Planning
POA&M                      Plan of Action and Milestones
RA                         Risk Assessment
SA                         System and Services Acquisition
SC                         System and Communication Protection
SCAP                       Security Content Automation Protocol
SIGTARP                    Special Inspector General for Troubled Asset Relief Program
TAF                        Trusted Agent FISMA
TARP                       Troubled Asset Relief Program
TCIO                       Treasury Chief Information Officer
TCSIRC                     Treasury Computer Security Incident Response Capability
TD                         Treasury Directive
TD P                       Treasury Directive Publication
TIGTA                      Treasury Inspector General for Tax Administration
TTB                        Alcohol and Tobacco Tax and Trade Bureau
US                         United States




                                                                                             Page 57
            ATTACHMENT 2

     Treasury Inspector General for Tax
 Administration–Federal Information Security
Management Act Report for Fiscal Year 2010,
(Audit # 2011-20-003), November 10, 2010
TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION 





                    Treasury Inspector General for Tax 

                Administration – Federal Information Security 

                Management Act Report for Fiscal Year 2010 




                                       November 10, 2010

                              Reference Number: 2011-20-003




  This report remains the property of the Treasury Inspector General for Tax Administration (TIGTA) and
   may not be disseminated beyond the Internal Revenue Service without the permission of the TIGTA.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY 

                                                      WASHINGTON, D.C. 20220





TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             November 10, 2010


 MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE INSPECTOR GENERAL
                DEPARTMENT OF THE TREASURY

 FROM:	                       Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:	                    Treasury Inspector General for Tax Administration – Federal
                              Information Security Management Act Report for Fiscal Year 2010
                              (Audit # 201020010)

 We are pleased to submit the Treasury Inspector General for Tax Administration’s Federal
 Information Security Management Act (FISMA) 1 report for the Fiscal Year 2010 FISMA
 evaluation period. 2 The FISMA requires the Office of Inspector General to perform an annual
 independent evaluation of each Federal agency’s information security policies, procedures, and
 practices, as well as evaluate its compliance with FISMA requirements. This report reflects our
 independent evaluation of the Internal Revenue Service’s (IRS) information technology security
 program for the period under review.
 We based our evaluation of the IRS on the Office of Management and Budget’s (OMB) FISMA
 2010 Reporting Guidelines. During the 2010 evaluation period, we conducted 10 audits, as
 shown in Appendix II, to evaluate the adequacy of information security in the IRS. We
 considered the results of these audits in our evaluation. In addition, we evaluated a
 representative sample of 10 major IRS information systems for our FISMA work. For each
 system in the sample, we assessed the quality of the certification and accreditation process, the
 annual testing of controls for continuous monitoring, the testing of information technology
 contingency plans, and the quality of the Plan of Action and Milestones process. We also
 conducted tests to evaluate processes over configuration management, incident response and


 1
  44 U.S.C. §§ 3541–3549. 

 2
  The Fiscal Year 2010 FISMA evaluation period for the Department of the Treasury is July 1, 2009, through

 June 30, 2010. All subsequent references to 2010 refer to the FISMA evaluation period.

                        Treasury Inspector General for Tax Administration – 

                           Federal Information Security Management Act 

                                    Report for Fiscal Year 2010



reporting, security training, remote access, account and identity management, and contractor
oversight.
Included in Appendix I are our responses to the OMB’s 2010 FISMA checklist for the Inspectors
General. Major contributors to this report are listed in Appendix III.
Based on our 2010 evaluation, we determined that the IRS’s information security program was
generally compliant with the FISMA legislation, OMB information security requirements, and
related information security standards published by the National Institute of Standards and
Technology. We determined that the following program areas met the level of performance
specified by the OMB’s 2010 FISMA checklist.
    •   Certification and accreditation program.
    •   Incident response and reporting program.
    •   Remote access management.
While the information security program was generally compliant with the FISMA legislation, the
program was not fully effective as a result of the conditions identified in the following areas.
    •   Configuration management.
    •   Security training.
    •   Plans of action and milestones.
    •   Identity and access management.
    •   Continuous monitoring management.
    •   Contingency planning.
    •   Contractor systems/financial audit.
Specific to the financial audit area, the Government Accountability Office (GAO) reported 3
newly identified and unresolved information security control weaknesses in key financial and tax
processing systems continue to jeopardize the confidentiality, integrity, and availability of
financial and sensitive taxpayer information. Until these control weaknesses are corrected, the
IRS remains unnecessarily vulnerable to insider threats related to the unauthorized access to and
disclosure, modification, or destruction of financial and taxpayer information, as well as the
disruption of system operations and services. These conditions were the basis for GAO’s
determination that the IRS had a material weakness in internal controls over financial reporting
related to information security in Fiscal Year 2009.

3
 INFORMATION SECURITY: IRS Needs to Continue to Address Significant Weaknesses (GAO-10-355, dated
March 2010).
                                                                                                    2
                      Treasury Inspector General for Tax Administration – 

                         Federal Information Security Management Act 

                                  Report for Fiscal Year 2010



Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




                                                                                             3
                                  Treasury Inspector General for Tax Administration – 

                                     Federal Information Security Management Act 

                                              Report for Fiscal Year 2010





                                            Table of Contents

Background .......................................................................................................... Page 1 


Appendices
          Appendix I – Results of the Treasury Inspector General for
          Tax Administration’s Federal Information Security
          Management Act Review .............................................................................. Page 2
          Appendix II – Treasury Inspector General for Tax Administration
          Information Technology Security Reports Issued During the
          2010 Evaluation Period ................................................................................. Page 21
          Appendix III – Major Contributors to This Report....................................... Page 22 

          Appendix IV – Report Distribution List ....................................................... Page 23 

          Treasury Inspector General for Tax Administration – 

             Federal Information Security Management Act 

                      Report for Fiscal Year 2010





                    Abbreviations

CIO          Chief Information Officer
FCD1         Federal Continuity Directive 1
FDCC         Federal Desktop Core Configuration
FIPS         Federal Information Processing Standards
FISMA        Federal Information Security Management Act
GAO          Government Accountability Office
HSPD         Homeland Security Presidential Directive
IRS          Internal Revenue Service
MOU          Memorandum of Understanding
NIST         National Institute of Standards and Technology
OIG          Office of the Inspector General
OMB          Office of Management and Budget
PIV          Personal Identity Verification
POA&M        Plan of Action and Milestones
TIGTA        Treasury Inspector General for Tax Administration
TT&E         Training, Testing, and Exercises
US-CERT      United States Computer Emergency Response Team
                              Treasury Inspector General for Tax Administration – 

                                 Federal Information Security Management Act 

                                          Report for Fiscal Year 2010





                                       Background

The Internal Revenue Service (IRS) collects and maintains a significant amount of personal and
financial information on each taxpayer. The IRS also relies extensively on computerized
systems to support its responsibilities in collecting taxes, processing tax returns, and enforcing
the Federal tax laws. As custodians of taxpayer information, the IRS has an obligation to protect
the confidentiality of this sensitive information against unauthorized access or loss. Otherwise,
taxpayers could be exposed to invasion of privacy and financial loss or damage from identity
theft or other financial crimes.
The Federal Information Security Management Act (FISMA) 1 was enacted to strengthen the
security of information and systems within Federal agencies. As part of this legislation, each
Federal Government agency is required to report annually to the Office of Management and
Budget (OMB) on the effectiveness of its security programs. In addition, the FISMA requires
the Offices of Inspector General to perform an annual independent evaluation of each Federal
agency’s information security policies and procedures, as well as evaluate its compliance with
FISMA requirements. In compliance with the FISMA requirements, the Treasury Inspector
General for Tax Administration (TIGTA) performs the annual independent evaluation of the
information security program and practices of the IRS.
The OMB provides information security performance measures by which each agency is
evaluated for the FISMA review. The OMB uses the information from the agencies and
independent evaluations to help assess agency-specific and Federal Governmentwide security
performance, develop its annual security report to Congress, and assist in improving and
maintaining adequate agency security performance.
Attached is the TIGTA’s Fiscal Year 2010 FISMA report. The report was forwarded to the
Treasury Inspector General for consolidation into a report issued to the Department of the
Treasury Chief Information Officer.




1
    44 U.S.C. §§ 3541–3549.
                                                                                           Page 1
                              Treasury Inspector General for Tax Administration – 

                                 Federal Information Security Management Act 

                                          Report for Fiscal Year 2010



                                                                                                    Appendix I

        Results of the Treasury Inspector General for 

          Tax Administration’s Federal Information 

             Security Management Act Review1


The OMB issued a checklist for use by Offices of Inspectors General to assess the level of
performance achieved by agencies in the specified program areas during the 2010 FISMA
evaluation period. This appendix presents our completed OMB checklist for the IRS.
We determined the level of performance (a, b, or c) that the IRS had achieved for each of the
program areas listed. As defined by the OMB, agencies achieve an “a” status for the program
area if they have met all the attributes specified by OMB in the “a” section. Agencies achieve a
“b” status if they have established the program area, but significant improvements were needed.
The OMB listed conditions in the “b” section that, if in need of significant improvement, would
prevent agencies from achieving an “a” status. Agencies achieve a “c” status if they have not yet
established the program area.
We checked IRS program areas as an “a” status where we determined that the IRS met all the
program attributes specified by the OMB. We checked IRS program areas as a “b” status where
we determined that one or more conditions listed by the OMB needed significant improvement at
the IRS. Due to time and resource constraints, we were not able to test all conditions listed by
the OMB in the “b” sections. Therefore, it is possible that more of these conditions exist at the
IRS than those we have checked. We did not check any program areas as a “c” status because
the IRS has established all program areas listed by the OMB.
For our FISMA work, we evaluated a representative sample of 10 major IRS information
systems, which included 9 IRS systems and 1 contractor-managed system. Of these 10 systems,
1 system had a Federal Information Processing Standards (FIPS) 199 impact level of high, and
9 systems were of a moderate impact level. All 10 systems had a current certification and
accreditation, had security controls tested within the past year, and had contingency plans tested
in accordance with policy.




1
  Due to the nature of the listing that follows, abbreviations are used exactly as presented in the original document
reproduced and are not defined therein. Please see the Abbreviations page after the Table of Contents of this report
for a listing of abbreviations.
                                                                                                              Page 2
                             Treasury Inspector General for Tax Administration – 

                                Federal Information Security Management Act 

                                         Report for Fiscal Year 2010



                              RESPONSES TO FISCAL YEAR 2010
                          OMB QUESTIONS FOR INSPECTOR GENERALS
S1: Certification and Accreditation
Status of Certification         a.  The Agency has established and is maintaining a certification and
and Accreditation           9       accreditation program that is generally consistent with NIST’s and OMB’s
Program [check one]                 FISMA requirements. Although improvement opportunities may have been
                                    identified by the OIG, the program includes the following attributes:
                                    1.	 Documented policies and procedures describing the roles and
                                        responsibilities of participants in the certification and accreditation
                                        process.
                                    2.	 Establishment of accreditation boundaries for Agency information
                                        systems.
                                    3. Categorizes information systems.
                                    4. Applies applicable minimum baseline security controls.
                                    5. Assesses risks and tailors security control baseline for each system.
                                    6.	 Assessment of the management, operational, and technical security
                                        controls in the information system.
                                    7.	 Risks to Agency operations, assets, or individuals analyzed and
                                        documented in the system security plan, risk assessment, or an equivalent
                                        document.
                                    8.	 The accreditation official is provided (i) the security assessment report
                                        from the certification agent providing the results of the independent
                                        assessment of the security controls and recommendations for corrective
                                        actions; (ii) the plan of action and milestones from the information system
                                        owner indicating actions taken or planned to correct deficiencies in the
                                        controls and to reduce or eliminate vulnerabilities in the information
                                        system; and (iii) the updated system security plan with the latest copy of
                                        the risk assessment.
                                b.	 The Agency has established and is maintaining a certification and
                                    accreditation program. However, the Agency needs to make significant
                                    improvements as noted below.
                                c.   The Agency has not established a certification and accreditation program.
1a. If b. checked above,        1a(1) Certification and accreditation policy is not fully developed.
    check areas that need
    significant                 1a(2) Certification and accreditation procedures are not fully developed,
    improvement:                      sufficiently detailed, or consistently implemented.
                                1a(3) Information systems are not properly categorized (FIPS 199/SP 800-60).
                                1a(4)	 Accreditation boundaries for Agency information systems are not
                                       adequately defined.
                                1a(5)	 Minimum baseline security controls are not adequately applied to
                                       information systems (FIPS 200/SP 800-53).
                                1a(6) Risk assessments are not adequately conducted (SP 800-30).
                                1a(7)	 Security control baselines are not adequately tailored to individual
                                       information systems (SP 800-30).


                                                                                                              Page 3
                            Treasury Inspector General for Tax Administration – 

                               Federal Information Security Management Act 

                                        Report for Fiscal Year 2010



                                1a(8) Security plans do not adequately identify security requirements
                                      (SP 800-18).
                                1a(9) Inadequate process to assess security control effectiveness (SP 800-53A).
                                1a(10) Inadequate process to determine risk to Agency operations, Agency assets,
                                       or individuals or to authorize information systems to operate (SP 800-37).
                                1a(11) Inadequate process to continuously track changes to information systems
                                       that may necessitate reassessment of control effectiveness (SP 800-37).
                                1a(12) Other.

                                Explanation for Other:
Comments:

S2: Configuration Management
Status of Security              a. The Agency has established and is maintaining a security configuration
Configuration                      management program that is generally consistent with NIST's and OMB's
Management Program                 FISMA requirements. Although improvement opportunities may have been
[check one]                        identified by the OIG, the program includes the following attributes:
                                   1. Documented policies and procedures for configuration management.
                                   2. Standard baseline configurations.
                                   3. Scanning for compliance and vulnerabilities with baseline configurations.
                                   4.	 FDCC baseline settings fully implemented and/or any deviations from
                                       FDCC baseline settings fully documented.
                                   5. Documented proposed or actual changes to the configuration settings.
                                   6. Process for the timely and secure installation of software patches.
                                b. The Agency has established and is maintaining a security configuration
                          9        management program. However, the Agency needs to make significant
                                   improvements as noted below.
                                c. The Agency has not established a security configuration management
                                   program.
2a. If b. checked above,        2a(1) Configuration management policy is not fully developed.
    check areas that need 

    significant
            9   2a(2) Configuration management procedures are not fully developed or
    improvement:                      consistently implemented.
                                2a(3) Software inventory is not complete (NIST 800-53: CM-8).
                                2a(4)	 Standard baseline configurations are not identified for all software
                                       components (NIST 800-53: CM-8).
                                2a(5) Hardware inventory is not complete (NIST 800-53: CM-8).
                                2a(6) Standard baseline configurations are not identified for all hardware
                                      components (NIST 800-53: CM-2).
                                2a(7) Standard baseline configurations are not fully implemented
                                      (NIST 800-53: CM-2).
                                2a(8) FDCC is not fully implemented (OMB) and/or all deviations are not fully
                                      documented.
                                2a(9) Software scanning capabilities are not fully implemented
                                      (NIST 800-53: RA-5, SI-2).

                                                                                                              Page 4
                                  Treasury Inspector General for Tax Administration – 

                                     Federal Information Security Management Act 

                                              Report for Fiscal Year 2010



                                9 2a(10) Configuration-related vulnerabilities have not been remediated in a timely
                                             manner (NIST 800-53: CM-4, CM-6, RA-5, SI-2).
                                9     2a(11) Patch management process is not fully developed (NIST 800-53: CM-3,
                                             SI-2).
                                      2a(12) Other.

                                      Explanation for Other:
Comments:
2a(2): The IRS has not completed corrective actions to resolve the software configuration management component
of the IRS computer security material weakness. 2 Although the IRS has made progress in implementing its
configuration management program, the IRS corrective action plan for resolving this material weakness indicates
ongoing corrective actions with scheduled completion dates ranging from April to December 2011. Until the IRS
has implemented adequate configuration management controls Agencywide, it cannot ensure the security and
integrity of system programs, files, and data.
     •    1-3-20: Ensure security configuration requirements for all system software are documented in an IRS
          Internal Revenue Manual. (Planned implementation date of April 2011)
     •    1-3-21: Implement and maintain baseline standard configurations on system software platforms and
          perform scheduled testing. This capability covers translation of Internal Revenue Manuals into standard
          build procedures and implementation/testing processes. (Planned implementation date of April 2011)
     •    1-3-22: Ensure system software is controlled under a documented change control process with procedures
          for assessment of security impact, notifications to Designated Approving Authorities, and appropriate
          baseline configuration updates. (Planned implementation date of April 2011)
     •    1-3-25: Establish and maintain collection and reporting of metrics to assess progress and track
          improvements in all component activity implementations over time. Successful operation of the policy,
          procedures, and plans for component activities for at least 2 consecutive quarters. Quarterly reviews by
          Cybersecurity and annual FISMA security reviews will revalidate compliance. (Planned implementation
          date of December 2011)
2a(10): In March 2010, TIGTA reported 3 that the IRS was not timely addressing high- and medium-risk system
vulnerabilities that it identified on Automated Collection System servers. The IRS UNIX Policy Checker scans that
the IRS ran on the servers from January through May 2009 reported that some high- and medium-risk vulnerabilities
remained on the servers for 2 to 5 months before system administrators took corrective actions.



2
  The IRS declared its security program as a material weakness in 1997. The IRS further categorized the material weakness into
nine areas relating to computer security: (1) network access controls; (2) key computer applications and system access controls;
(3) software configuration; (4) functional business, operating, and program units security roles and responsibilities; 

(5) segregation of duties between system and security administrators; (6) contingency planning and disaster recovery; 

(7) monitoring of key networks and systems; (8) security training; and (9) certification and accreditation. An Executive Steering 

Committee oversees the plan, ensuring that material weakness areas are addressed by all affected organizations, appropriate

policy and procedures are implemented, and actions resolve the systemic cause of the material weakness. The IRS has closed

four of the material weakness areas: (4) functional business, operating, and program units security roles and responsibilities

(5) segregation of duties between system and security administrators; (8) security training; and (9) certification and accreditation.

The TIGTA did not concur with the IRS’s closure of area (4), functional business, operating, and program units security roles and 

responsibilities. 

3
  Additional Security Controls Are Needed to Protect the Automated Collection System (Reference Number 2010-20-028, dated

March 30, 2010). 


                                                                                                                           Page 5
                             Treasury Inspector General for Tax Administration – 

                                Federal Information Security Management Act 

                                         Report for Fiscal Year 2010



In addition, during the 2010 FISMA evaluation period, the TIGTA concluded fieldwork on an audit to evaluate IRS
email servers and found that the IRS is not taking timely actions to correct medium-risk security vulnerabilities
identified through monthly scans on its email servers. The Modernization and Information Technology Services
organization’s Enterprise Operations office uses the Windows Policy Checker to conduct monthly scans of its
70 email servers. The scans conducted from September 2009 through February 2010 determined the servers failed
between 73 and 79 medium-risk security checks each month. The number of failed security checks on each server
was the same each month.
2a(11): The IRS computer security material weakness relating to configuration management includes unresolved
weaknesses in the IRS patch management process. The IRS corrective action plan for resolving the patch
management weaknesses indicates the following two corrective actions will be completed in April 2011.
    •   1-3-23: Ensure system software is patched under a documented process that includes standard procedures
        and fall-back procedures, ensures patch testing, and ensures the dissemination, installation, and verification
        of patch installations for all components. (Planned implementation date of April 2011)
    •   1-3-24: Internal and external monitoring and reporting on secure configuration setting changes and patch
        levels. “Review” includes comparison to approved changes. “Remediation” includes followup on
        noncompliant components and testing and implementation of proposed corrections. (Planned
        implementation date of April 2011)
2b. Identify baselines reviewed:
2b(1) Software Name          None.
2b(2) Software Version None.

S3: Incident Response and Reporting
Status of Incident               a. The Agency has established and is maintaining an incident response and
Response & Reporting        9       reporting program that is generally consistent with NIST’s and OMB’s
Program [check one]                 FISMA requirements. Although improvement opportunities may have been
                                    identified by the OIG, the program includes the following attributes:
                                    1. Documented policies and procedures for responding and reporting to
                                        incidents.
                                    2. Comprehensive analysis, validation, and documentation of incidents.
                                    3. When applicable, reports to US-CERT within established time frames.
                                    4. When applicable, reports to law enforcement within established time
                                        frames.
                                    5. Responds to and resolves incidents in a timely manner to minimize further
                                        damage.
                                 b. The Agency has established and is maintaining an incident response and
                                    reporting program. However, the Agency needs to make significant
                                    improvements as noted below.
                                 c.   The Agency has not established an incident response and reporting program.
3a. If b. checked above,         3a(1) Incident response and reporting policy is not fully developed.
    check areas that need
    significant                  3a(2) Incident response and reporting procedures are not fully developed,
    improvement:                       sufficiently detailed, or consistently implemented.
                                 3a(3) Incidents were not identified in a timely manner (NIST 800-53, 800-61,
                                       and OMB M-07-16, M-06-19).


                                                                                                              Page 6
                            Treasury Inspector General for Tax Administration – 

                               Federal Information Security Management Act 

                                        Report for Fiscal Year 2010



                                3a(4) Incidents were not reported to US-CERT as required (NIST 800-53,
                                      800-61, and OMB M-07-16, M-06-19).
                                3a(5) Incidents were not reported to law enforcement as required.
                                3a(6) Incidents were not resolved in a timely manner (NIST 800-53, 800-61, and
                                      OMB M-07-16, M-06-19).
                                3a(7) Incidents were not resolved to minimize further damage (NIST 800-53,
                                      800-61, and OMB M-07-16, M-06-19).
                                3a(8) There is insufficient incident monitoring and detection coverage
                                      (NIST 800-53, 800-61, and OMB M-07-16, M-06-19).
                                3a(9) Other.

                                Explanation for Other:
Comments:

S4: Security Training
Status of Security              a. The Agency has established and is maintaining a security training program
Training Program                   that is generally consistent with NIST’s and OMB’s FISMA requirements.
[check one]                        Although improvement opportunities may have been identified by the OIG,
                                   the program includes the following attributes:
                                   1. Documented policies and procedures for security awareness training.
                                   2. Documented policies and procedures for specialized training for users
                                        with significant information security responsibilities.
                                   3. Appropriate training content based on the organization and roles.
                                   4. Identification and tracking of all employees with login privileges that need
                                        security awareness training.
                                   5. Identification and tracking of employees without login privileges that
                                        require security awareness training.
                                   6. Identification and tracking of all employees with significant information
                                        security responsibilities that require specialized training.
                                b. The Agency has established and is maintaining a security training program.
                            9      However, the Agency needs to make significant improvements as noted
                                   below.
                                c.   The Agency has not established a security training program.
4a. If b. checked above,        4a(1) Security awareness training policy is not fully developed.
    check areas that need
    significant                 4a(2) Security awareness training procedures are not fully developed,
    improvement:                      sufficiently detailed, or consistently implemented.
                                4a(3) Specialized security training policy is not fully developed.
                                4a(4) Specialized security awareness training procedures are not fully developed
                                      or sufficiently detailed (SP 800-50, SP 800-53).
                                4a(5) Training material for security awareness training does not contain
                                      appropriate content for the Agency (SP 800-50, SP 800-53).
                                4a(6) Identification and tracking of employees with login privileges that require
                                      security awareness training is not adequate (SP 800-50, SP 800-53).


                                                                                                          Page 7
                              Treasury Inspector General for Tax Administration – 

                                 Federal Information Security Management Act 

                                          Report for Fiscal Year 2010



                                  4a(7) Identification and tracking of employees without login privileges that
                                          require security awareness training is not adequate (SP 800-50,
                                          SP 800-53).
                                  4a(8) Identification and tracking of employees with significant security
                                          information security responsibilities is not adequate (SP 800-50,
                                          SP 800-53).
                                  4a(9) Training content for individuals with significant information security
                                          responsibilities is not adequate (SP 800-53, SP 800-16).
                                  4a(10) Less than 90 percent of employees with login privileges attended security
                                          awareness training in the past year.
                                  4a(11) Less than 90 percent of employees, contractors, and other users with
                                          significant security responsibilities attended specialized security awareness
                                          training in the past year.
                             9    4a(12) Other(s).
                                     (i): Not all contractors with staff-like access were provided with security
                                          awareness training.
                                      (ii): Until the IRS improves its identification and tracking of employees and
                                           contractors with significant security responsibilities, the percentage of
                                           those who completed specialized security training in the past year cannot
                                           be verified.
                                  Explanation for Other(s):
                                     (i): In accordance with FISMA requirements, IRS policy requires the Agency
                                          to provide security awareness training to inform all IRS employees and
                                          contractors of the information security risks associated with their activities
                                          and their responsibilities in complying with IRS policies and procedures
                                          designed to reduce these risks. However, in June 2010, the GAO reported
                                          that the IRS did not provide security awareness training for all IRS
                                          contractors, such as janitors and security guards, who are provided
                                          unescorted physical access to its facilities containing taxpayer receipts and
                                          information. 4 Based on the GAO’s finding, the IRS stated it updated its
                                          policy as of September 7, 2010, to require all contractors to take security
                                          awareness training suitable to their type of access. The IRS also stated that
                                          it modified its contractor tracking system to track the completion of the
                                          required training modules for each contractor during the Fiscal Year 2011
                                          FISMA evaluation period.
                                     (ii): We were unable to definitively determine the percentage of employees and
                                           contractors with significant security responsibilities that completed
                                           specialized security training in the Fiscal Year 2010 FISMA evaluation
                                           period. The IRS reported 6,014 of 6,029 (99.8 percent) employees
                                           completed their required hours of specialized security training for the
                                           Fiscal Year 2010 FISMA evaluation period. The IRS did not track




4
 Management Report: Improvements Are Needed in IRS's Internal Controls and Compliance with Laws and Regulations
(GAO-10-565R, dated June 2010).

                                                                                                               Page 8
                                Treasury Inspector General for Tax Administration – 

                                   Federal Information Security Management Act 

                                            Report for Fiscal Year 2010



                                            contractor completion of specialized security training. In a recent TIGTA
                                            review, 5 we reported that the IRS needed to improve processes to identify
                                            all IRS employees and contractors performing in security roles requiring
                                            specialized training. The IRS had not yet documented in its official policy
                                            five security roles that the Department of the Treasury policy states must
                                            receive specialized training. As a result, the IRS agreed to update its
                                            policy to include all security roles in existence at the IRS and crosswalk
                                            these with its current training curriculum. In addition, the IRS stated it has
                                            recently modified its contractor tracking system to identify contractors that
                                            require specialized training and plans to write policy and associated
                                            security clauses to require contractors to comply with these training
                                            requirements, to be effective for the Fiscal Year 2012 FISMA evaluation
                                            period. Until the IRS completes these actions, we cannot verify the
                                            population of IRS employees and contractors that require specialized
                                            training or the numbers of those that completed their required training.
Comments:

S5: POA&M 

Status of Plan of Action            a. The Agency has established and is maintaining a POA&M program that is
& Milestones (POA&M)                   generally consistent with NIST’s and OMB’s FISMA requirements and tracks
Program [check one]                    and monitors known information security weaknesses. Although improvement
                                       opportunities may have been identified by the OIG, the program includes the
                                       following attributes:
                                       1. Documented policies and procedures for managing all known IT security
                                            weaknesses.
                                       2. Tracks, prioritizes, and remediates weaknesses.
                                       3. Ensures remediation plans are effective for correcting weaknesses.
                                       4. Establishes and adheres to reasonable remediation dates.
                                       5. Ensures adequate resources are provided for correcting weaknesses.
                                       6. Program officials and contractors report progress on remediation to CIO
                                            on a regular basis, at least quarterly, and the CIO centrally tracks,
                                            maintains, and independently reviews/validates the POA&M activities at
                                            least quarterly.
                                    b. The Agency has established and is maintaining a POA&M program that tracks
                              9        and remediates known information security weaknesses. However, the Agency
                                       needs to make significant improvements as noted below.
                                    c.   The Agency has not established a POA&M program.
5a. If b. checked above,            5a(1) POA&M policy is not fully developed.
    check areas that need
    significant                     5a(2) POA&M procedures are not fully developed, sufficiently detailed, or
    improvement:                          consistently implemented.
                              9 5a(3) POA&Ms do not include all known security weaknesses (OMB M-04-25).


5
 More Actions Are Needed to Correct the Security Roles and Responsibilities Portion of the Computer Security Material
Weakness (Reference Number 2010-20-084, dated August 26, 2010).

                                                                                                                    Page 9
                                Treasury Inspector General for Tax Administration – 

                                   Federal Information Security Management Act 

                                            Report for Fiscal Year 2010



                                    5a(4) Remediation actions do not sufficiently address weaknesses
                                          (NIST SP 800-53, Rev. 3, Sect. 3.4 Monitoring Security Controls).
                                    5a(5) Initial dates of security weaknesses are not tracked (OMB M-04-25).

                                    5a(6) Security weaknesses are not appropriately prioritized (OMB M-04-25).

                                    5a(7) Estimated remediation dates are not reasonable (OMB M-04-25).

                                    5a(8) Initial target remediation dates are frequently missed (OMB M-04-25).
                                    5a(9) POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3,
                                           Control CA-5, & OMB M-04-25).
                                    5a(10) Costs associated with remediating weaknesses are not identified
                                           (NIST SP 800-53, Rev. 3, Control PM-3 & OMB M-04-25).
                                    5a(11) Agency CIO does not track and review POA&Ms (NIST SP 810-53m,
                                           Rev. 3, Control CA-5 & OMB M-04-25).
                                    5a(12) Other:
                              9            Security weaknesses were closed in POA&Ms before effective corrective
                                           action was taken.
                                    Explanation for Other:
                                           In August 2009, the TIGTA reported 6 that the IRS had prematurely
                                           reported resolution of 6 of 13 security control vulnerabilities in the
                                           POA&M for the Customer Accounts Data Engine before effective
                                           corrective action was taken.
                                            In May 2010, the TIGTA reported 7 that the IRS closed four POA&M
                                            weaknesses identified in the Modernized e-File system before effective
                                            corrective action was taken.
                                            During the 2010 FISMA evaluation period, the IRS took steps to improve
                                            its POA&M procedures, including requiring system owners to document
                                            sufficient detail regarding how weaknesses were remediated before
                                            changing their status to “completed.” We reviewed the weaknesses that
                                            were closed during the 2010 FISMA cycle for our 10 sample systems and
                                            found system owners had documented information to support their
                                            corrective actions. However, we did not find information to indicate that
                                            required verifications were performed before closing these weaknesses as
                                            per IRS policy. The Cybersecurity organization indicated that this
                                            verification step may be implemented during the next FISMA cycle,
                                            depending on available resources.
Comments:
5a(3): In May 2010, the TIGTA reported 8 that security weaknesses identified by the IRS at seven of the eight
contractor facilities we sampled were not maintained in POA&Ms as required by the FISMA. These weaknesses


6
  Customer Account Data Engine Release 4 Includes Most Planned Capabilities and Security Requirements for Processing 

Individual Tax Account Information (Reference Number 2009-20-100, dated August 28, 2009). 

7
  Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax Returns, but System Development and 

Security Need Improvement (Reference Number 2010-20-041, dated May 26, 2010). 


                                                                                                                   Page 10
                               Treasury Inspector General for Tax Administration – 

                                  Federal Information Security Management Act 

                                           Report for Fiscal Year 2010



included access control, configuration management control, and system integrity control issues. The IRS agreed
with our report finding that these security weaknesses should be tracked in POA&Ms.
In addition, during the Fiscal Year 2010 FISMA evaluation period, the TIGTA completed fieldwork on an audit to
evaluate IRS email servers and found that medium-risk weaknesses the IRS repeatedly detected on its email servers
through monthly scans were not posted to POA&Ms. Monthly scans conducted from September 2009 through
February 2010 determined that the servers failed between 73 and 79 medium-risk security checks each month.


S6: Remote Access Management
Status of Remote Access            a. The Agency has established and is maintaining a remote access program that
Program [check one]           9       is generally consistent with NIST’s and OMB’s FISMA requirements.
                                      Although improvement opportunities may have been identified by the OIG,
                                      the program includes the following attributes:
                                      1. Documented policies and procedures for authorizing, monitoring, and
                                           controlling all methods of remote access.
                                      2. Protects against unauthorized connections or subversion of authorized
                                           connections.
                                      3. Users are uniquely identified and authenticated for all access.
                                      4. If applicable, multi-factor authentication is required for remote access.
                                      5. Authentication mechanisms meet NIST Special Publication 800-63
                                           guidance on remote electronic authentication, including strength
                                           mechanisms.
                                      6. Requires encrypting sensitive files transmitted across public networks or
                                           stored on mobile devices and removable media such as CDs and flash
                                           drives.
                                      7. Remote access sessions are timed-out after a maximum of 30 minutes of
                                           inactivity, after which re-authentication is required.
                                   b. The Agency has established and is maintaining a remote access program.
                                      However, the Agency needs to make significant improvements as noted
                                      below.
                                   c.   The Agency has not established a program for providing secure remote access.
6a. If b. checked above,           6a(1) Remote access policy is not fully developed.
    check areas that need
    significant                    6a(2) Remote access procedures are not fully developed, sufficiently detailed, or
    improvement:                         consistently implemented.
                                   6a(3) Telecommuting policy is not fully developed (NIST 800-46 Section 5.1).
                                   6a(4) Telecommuting procedures are not fully developed or sufficiently detailed
                                         (NIST 800-46 Section 5.4).
                                   6a(5) Agency cannot identify all users who require remote access (NIST 800-46
                                         Section 4.2, Section 5.1).
                                   6a(6) Multi-factor authentication is not properly deployed (NIST 800-46
                                         Section 2.2, Section 3.3).



8
 Taxpayer Data Used at Contractor Facilities May Be at Risk for Unauthorized Access or Disclosure (Reference
Number 2010-20-51, dated May 18, 2010).

                                                                                                               Page 11
                             Treasury Inspector General for Tax Administration – 

                                Federal Information Security Management Act 

                                         Report for Fiscal Year 2010




                                6a(7) Agency has not identified all remote devices (NIST 800-46 Section 2.1).
                                6a(8) Agency has not determined all remote devices and/or end user computers
                                       have been properly secured (NIST 800-46 Section 3.1 and Section 4.2).
                                6a(9) Agency does not adequately monitor remote devices when connected to the
                                       Agency’s networks remotely (NIST 800-46 Section 3.2).
                                6a(10) Lost or stolen devices are not disabled and appropriately reported
                                       (NIST 800-46 Section 4.3, US-CERT Incident Reporting Guidelines).
                                6a(11) Remote access rules of behavior are not adequate (NIST 800-53, PL-4).
                                6a(12) Remote access user agreements are not adequate (NIST 800-46 Section 5.1
                                       & NIST 800-53, PS-6).
                                6a(13) Other.

                                Explanation for Other:


S7: Identity and Access Management
Status of Account and           a. The Agency has established and is maintaining an account and identity
Identity Management                management program that is generally consistent with NIST’s and OMB’s
Program [check one]                FISMA requirements and identifies users and network devices. Although
                                   improvement opportunities may have been identified by the OIG, the program
                                   includes the following attributes:
                                   1. Documented policies and procedures for account and identity
                                       management.
                                   2. Identifies all users, including Federal employees, contractors, and others
                                       who access Agency systems.
                                   3. Identifies when special access requirements (e.g., multi-factor
                                       authentication) are necessary.
                                   4. If multi-factor authentication is in use, it is linked to the Agency’s PIV
                                       program.
                                   5. Ensures that the users are granted access based on needs and separation of
                                       duties principles.
                                   6. Identifies devices that are attached to the network and distinguishes these
                                       devices from users.
                                   7. Ensures that accounts are terminated or deactivated once access is no
                                       longer required.
                                b. The Agency has established and is maintaining an account and identity
                            9      management program that identifies users and network devices. However, the
                                   Agency needs to make significant improvements as noted below.
                                c.   The Agency has not established an account and identity management program.
7a. If b. checked above,        7a(1) Account management policy is not fully developed.
    check areas that need
    significant             9 7a(2) Account management procedures are not fully developed, sufficiently
    improvement:                        detailed, or consistently implemented.
                                7a(3) Active directory is not properly implemented (NIST 800-53, AC-2).
                                7a(4) Other non-Microsoft account management software is not properly
                                      implemented (NIST 800-53, AC-2).

                                                                                                        Page 12
                                 Treasury Inspector General for Tax Administration – 

                                    Federal Information Security Management Act 

                                             Report for Fiscal Year 2010



                                     7a(5) Agency cannot identify all User and Non-User accounts (NIST 800-53,
                                           AC-2).
                                     7a(6) Accounts are not properly issued to new users (NIST 800-53, AC-2).
                                9 7a(7) Accounts are not properly terminated when users no longer require access
                                            (NIST 800-53, AC-2).
                                     7a(8) Agency does not use multi-factor authentication when required
                                            (NIST 800-53, IA-2).
                                     7a(9) Agency has not adequately planned for implementation of PIV for logical
                                            access (HSPD-12, FIPS 201, OMB M-05-24, OMB M-07-06,
                                            OMB M-08-01).
                                9    7a(10) Privileges granted are excessive or result in capability to perform
                                            conflicting functions (NIST 800-53, AC-2, AC-6).
                                     7a(11) Agency does not use dual accounts for administrators (NIST 800-53,
                                            AC-5, AC-6).
                                     7a(12) Network devices are not properly authenticated (NIST 800-53, IA-3).

                                     7a(13) Other.

                                     Explanation for Other:
Comments:
7a(2): The IRS has not completed corrective actions to resolve the component of the IRS computer security material
weakness relating to access controls. While the IRS’s corrective action plan for this material weakness indicates
progress has been made in completing the planned actions, there are still ongoing corrective actions with scheduled
completion dates ranging from April to December 2011. These involve ensuring that effective access controls are
implemented IRS-wide. Until the IRS completes these corrective actions, it cannot ensure that access to key
computer applications and systems is limited to authorized persons for authorized purposes.
    •   1-2-20: Develop implementation plan to ensure that corrective actions 1-2-11, 12, 13, 14, 15, and 16 9 can be
        applied to all organizations, systems, and applications to full levels of effectiveness regarding policies,
        procedures, implementations, monitoring, and testing. (Planned implementation date of April 2011)
    •   1-2-21: Execute implementation plan to ensure that corrective actions 1-2-11, 12, 13, 14, 15, and 16 can be
        applied to all organizations, systems, and applications to full levels of effectiveness regarding policies,
        procedures, implementations, monitoring, and testing. (Planned implementation date of April 2011)
    •   1-2-22: Establish and maintain collection and reporting of metrics to assess progress and track improvements
        in all component activity implementations over time. Successful operation of the policy, procedures, and
        plans for component activities for at least two consecutive quarters. Quarterly review by Cybersecurity and
        annual FISMA security review will revalidate compliance. (Planned implementation date of
        December 2011)
7a(7): In July 2009, the TIGTA reported 10 that, in a sample of 7 systems, 53 of 376 contractors had active user
accounts but did not have a business need to access these systems. These 53 contractors consisted of contractors
whose job duties or access privileges had changed and no longer needed system access, contractors who had


9
  These corrective actions listed relate to account management procedures, including controlling user authorizations and levels of
privileges on all systems, applications, databases, and other software. This footnote also applies the corrective action 1-2-21.
10
   Computer System Access Controls Over Contractors Need to Be Improved (Reference Number 2009-20-108, dated July 24,
2009).

                                                                                                                        Page 13
                                Treasury Inspector General for Tax Administration – 

                                   Federal Information Security Management Act 

                                            Report for Fiscal Year 2010



separated from the contract with the IRS, and contractors who had never logged on to the system or had not logged
on to the system within 45 calendar days. We also identified 15 contractors whose system access was not deleted in
a timely manner upon separation from the contract with the IRS. The IRS agreed with our report findings. The IRS
stated that, effective September 7, 2010, it began tracking information from contractors concerning employee status
changes, including separations and changes in duties, to ensure timely account termination when access is no longer
required.
In addition, in March 2010, the TIGTA reported 11 that the Registered User Portal, which allows tax professionals to
electronically submit and retrieve tax-related information, was not configured to disable and remove users’ access
accounts in accordance with IRS security policies and procedures. Rather than implement the control to disable
inactive accounts after 45 days as required by IRS policy, the IRS set the control to 720 days. In addition, the IRS
did not implement a control to remove inactive accounts. Inactive accounts unnecessarily increase the opportunity
for malicious individuals to gain access to taxpayer data through an unused account.
7a(10): In July 2009, the TIGTA reported 12 that, from a sample of 7 IRS systems, 12 system development
contractors had access and full privileges to the production environment of the system on which they worked, in
violation of the IRS policy on separation of duties. Developers with access to the production system could bypass
controls and make unapproved and untested changes. In addition, 39 system administration contractors also had
database administrator privileges. This lack of separation of duties could jeopardize the integrity of the data and
allow unauthorized changes to the data to go undetected. The IRS stated it is now notifying contractors during the
on-boarding process of the separation of duties requirement and requiring contractors to identify which one of those
duties they will perform, if any.
In addition, in March 2010, the TIGTA reported 13 that 6 of 109 sampled employees’ system privileges on the
Automated Collection System were not restricted to only those privileges needed to perform assigned duties.
Excessive privileges granted included the ability to increase the privileges of other users and to perform
management queries to view large amounts of sensitive tax collection data. When users are granted access
permissions beyond their assigned responsibilities, the risks of malicious actions and unauthorized disclosure of
taxpayer data are increased. In addition, 58 employees had unneeded privileges that allowed them the authority to
create, modify, or delete the system audit trails. These actions, taken either accidently or intentionally, could
conceal unauthorized activity and compromise the integrity of the audit trail.




11
   Additional Security Is Needed for Access to the Registered User Portal (Reference Number 2010-20-027, dated

March 31, 2010). 

12
   Computer System Access Controls Over Contractors Need to Be Improved (Reference Number 2009-20-108, dated

July 24, 2009). 

13
   Additional Security Controls Are Needed to Protect the Automated Collection System (Reference Number 2010-20-028, dated

March 30, 2010). 


                                                                                                                 Page 14
                           Treasury Inspector General for Tax Administration – 

                              Federal Information Security Management Act 

                                       Report for Fiscal Year 2010





S8: Continuous Monitoring Management
Status of Continuous           a. The Agency has established an entity-wide continuous monitoring program
Monitoring Program                that assesses the security state of information systems that is generally
[check one]                       consistent with NIST’s and OMB’s FISMA requirements. Although
                                  improvement opportunities may have been identified by the OIG, the program
                                  includes the following attributes:
                                  1. Documented policies and procedures for continuous monitoring.
                                  2. Documented strategy and plans for continuous monitoring, such as
                                       vulnerability scanning, log monitoring, notification of unauthorized
                                       devices, sensitive new accounts, etc.
                                  3. Ongoing assessments of selected security controls (system-specific,
                                       hybrid, and common) that have been performed based on the approved
                                       continuous monitoring plans.
                                  4. Provides system authorizing officials and other key system officials with
                                       security status reports covering updates to security plans and security
                                       assessment reports, as well as POA&M additions.
                               b. The Agency has established an entity-wide continuous monitoring program
                           9      that assesses the security state of information systems. However, the Agency
                                  needs to make significant improvements as noted below.
                               c.   The Agency has not established a continuous monitoring program.
8a. If b. checked above,       8a(1) Continuous monitoring policy is not fully developed.
    check areas that
    need significant           8a(2) Continuous monitoring procedures are not fully developed or consistently
    improvement:                     implemented.
                               8a(3) Strategy or plan has not been fully developed for entity-wide continuous
                                     monitoring (NIST 800-37).
                               8a(4) Ongoing assessments of selected security controls (system-specific, hybrid,
                                     and common) have not been performed (NIST 800-53, NIST 800-53A).
                               8a(5) The following were not provided to the system authorizing official or other
                                     key system officials: security status reports covering continuous
                                     monitoring results, updates to security plans, security assessment reports,
                                     and POA&Ms (NIST 800-53, NIST 800-53A).
                               8a(6) Other:
                           9         The IRS has not resolved its computer security material weakness relating
                                     to audit logging.
                               Explanation for Other:
                                      The IRS has not completed corrective actions to resolve the audit logging
                                      component of the IRS computer security material weakness. The IRS
                                      corrective action plan for resolving the audit logging weakness indicates
                                      that there are still ongoing corrective actions with scheduled completion
                                      dates ranging from February 2011 to October 2013. Until corrective
                                      actions are completed to resolve the audit logging material weakness, the
                                      IRS cannot effectively monitor key networks and systems to identify
                                      unauthorized activities and inappropriate system configurations.



                                                                                                       Page 15
                                Treasury Inspector General for Tax Administration – 

                                   Federal Information Security Management Act 

                                            Report for Fiscal Year 2010



                                            During the 2010 FISMA evaluation period, the TIGTA reported that the
                                            IRS continues to have problems with audit logging. In March 2010, the
                                            TIGTA reported14 that the IRS does not analyze the audit logs for the
                                            Registered User Portal system to detect unlawful or unauthorized
                                            activities. Consequently, unauthorized access to taxpayer data could go
                                            undetected.
                                            In March 2010, the TIGTA reported15 that the IRS is not capturing all of
                                            the required auditable events in Automated Collection System audit trails.
                                            The IRS informed us that enabling all required auditing events would
                                            negatively affect system performance.
                                            In July 2010, the TIGTA reported16 **********2(f)*****************
                                            ***********************************************************
                                            **********************************************************
                                            **********************************************************
                                            ***********************************************************
                                            **********************************************************
                                            **********************************************************
                                            **********************************************************.
Comments:

S9: Contingency Planning
Status of Contingency               a.   The Agency established and is maintaining an entity-wide business
Planning Program                         continuity/disaster recovery program that is generally consistent with NIST’s
[check one]                              and OMB’s FISMA requirements. Although improvement opportunities may
                                         have been identified by the OIG, the program includes the following
                                         attributes:
                                         1. Documented business continuity and disaster recovery policy providing
                                              the authority and guidance necessary to reduce the impact of a disruptive
                                              event or disaster.
                                         2. The Agency has performed an overall Business Impact Assessment.
                                         3. Development and documentation of division, component, and IT
                                              infrastructure recovery strategies, plans, and procedures.
                                         4. Testing of all system-specific contingency plans.
                                         5. The documented business continuity and disaster recovery plans are ready
                                              for implementation.
                                         6. Development of training, testing, and exercises (TT&E) approaches.
                                         7. Performance of regular ongoing testing or exercising of continuity/disaster
                                              recovery plans to determine effectiveness and to maintain current plans.




14
   Additional Security Is Needed for Access to the Registered User Portal (Reference Number 2010-20-027, dated

March 31, 2010). 

15
   Additional Security Controls Are Needed to Protect the Automated Collection System (Reference Number 2010-20-028, dated

March 30, 2010). 

16
   Additional Actions and Resources Are Needed to Resolve the Audit Trail Portion of the Computer Security Material Weakness
(Reference Number 2010-20-082, dated July 28, 2010).

                                                                                                                  Page 16
                            Treasury Inspector General for Tax Administration – 

                               Federal Information Security Management Act 

                                        Report for Fiscal Year 2010



                                b. The Agency has established and is maintaining an entity-wide business
                            9      continuity/disaster recovery program. However, the Agency needs to make
                                   significant improvements as noted below.
                                c. The Agency has not established a business continuity/disaster recovery
                                   program.
9a. If b. checked above,        9a(1) Contingency planning policy is not fully developed.
    check areas that need
    significant                 9a(2) Contingency planning procedures are not fully developed or consistently
    improvement:                       implemented.
                                9a(3) An overall business impact assessment has not been performed
                                       (NIST SP 800-34).
                                9a(4) Development of organization, component, or infrastructure recovery
                                       strategies and plans has not been accomplished (NIST SP 800-34).
                                9a(5) A business continuity/disaster recovery plan has not been developed
                                       (FCD1, NIST SP 800-34).
                                9a(6) A business continuity/disaster recovery plan has been developed, but not
                                       fully implemented (FCD1, NIST SP 800-34).
                                9a(7) System contingency plans missing or incomplete (FCD1, NIST SP 800-34,
                                       NIST SP 800-53).
                                9a(8) Critical systems contingency plans are not tested (FCD1, NIST SP 800-34,
                                       NIST SP 800-53).
                                9a(9) Training, testing, and exercises approaches have not been developed
                                       (FCD1, NIST SP 800-34, NIST SP 800-53).
                                9a(10) Training, testing, and exercises approaches have been developed, but are
                                       not fully implemented (FCD1, NIST SP 800-34, NIST SP 800-53).
                                9a(11) Disaster recovery exercises were not successful (NIST SP 800-34).
                                9a(12) After-action plans did not address issues identified during disaster recovery
                                       exercises (FCD1, NIST SP 800-34).
                                9a(13) Critical systems do not have alternate processing sites (FCD1,
                                       NIST SP 800-34, NIST SP 800-53).
                                9a(14) Alternate processing sites are subject to same risks as primary sites (FCD1,
                                       NIST SP 800-34, NIST SP 800-53).
                                9a(15) Backups of information are not performed in a timely manner (FCD1,
                                       NIST SP 800-34, NIST SP 800-53).
                                9a(16) Backups are not appropriately tested (FCD1, NIST SP 800-34,
                                       NIST SP 800-53).
                                9a(17) Backups are not properly secured and protected (FCD1, NIST SP 800-34,
                                       NIST SP 800-53).
                            9   9a(18) Other:
                                       The IRS has made significant progress, but has not resolved its material
                                       weakness relating to disaster recovery controls.
                                Explanation for Other:
                                       The IRS has not yet fully implemented adequate processes to ensure
                                       disaster recovery capabilities are implemented IRS-wide. While the IRS’s
                                       material weakness corrective action plan indicates progress has been made
                                       in mitigating disaster recovery issues, the following disaster recovery
                                       corrective actions are still ongoing with scheduled completion dates

                                                                                                          Page 17
            Treasury Inspector General for Tax Administration – 

               Federal Information Security Management Act 

                        Report for Fiscal Year 2010



                   ranging from October 2010 to December 2011. These involve ensuring
                   effective disaster recovery controls are implemented IRS-wide. Until the
                   IRS has completed its corrective actions to resolve this weakness, it cannot
                   ensure critical business systems can be timely restored when unexpected
                   events occur.
                     •   1-6-16 – Disaster Recovery Compliance: Complete internal
                         auditing of the disaster recovery efforts to ensure accuracy and
                         completeness as it relates to day-to-day operations and efforts to
                         mitigate the material weakness. Establish and maintain metrics
                         documentation to assess progress and track improvements in all
                         component activities over time. Conduct an annual evaluation to
                         revalidate compliance. (Planned implementation date of July 2011)
                     •   1-6-17 – Disaster Recovery Plans: Develop and maintain
                         Information Technology contingency plans associated with general
                         support systems to include all components that support critical
                         applications. Establish and maintain data and processing
                         backup-recovery capability. Ensure maximum allowable outage
                         times meet the recovery time objectives of the applications being
                         supported. (Planned implementation date of December 2010)
                     •   1-6-19 – Technical Assessment: Perform annual system risk
                         assessments. Develop a true redundancy/resilience analysis. Based
                         on the critical business processes, develop a site-based restoration
                         vulnerability analysis. Create a Recovery Point Objective and
                         Recovery Time Objective analysis and gain concurrence from both
                         the business operating divisions and the Modernization and
                         Information Technology Services organizations. Incorporate a
                         technical assessment tool that will provide an infrastructure impact
                         analysis in the event of a disaster. Implement backup-recovery
                         capabilities to meet application maximum allowable outages and
                         recovery time objectives of all Information Technology systems
                         supporting the critical business processes. (Planned implementation
                         date of July 2011)
                     •   1-6-20 – Metrics: Establish and maintain metrics to assess progress
                         and track improvements in all component activities over time.
                         Successful operation of the policy, procedures, and plans for
                         component activities for at least two quarters. Annual FISMA
                         testing will revalidate compliance. (Planned implementation date of
                         December 2011)
Comments:




                                                                                     Page 18
                            Treasury Inspector General for Tax Administration – 

                               Federal Information Security Management Act 

                                        Report for Fiscal Year 2010





S10/S11: Contractor Systems/Financial Audit
Status of Agency                a.  The Agency has established and maintains a program to oversee systems
Program to Oversee                  operated on its behalf by contractors or other entities. Although improvement
Contractor Systems                  opportunities may have been identified by the OIG, the program includes the
[check one]                         following attributes:
                                    1.	 Documented policies and procedures for information security oversight of
                                         systems operated on the Agency’s behalf by contractors or other entities
                                         of the Agency obtains sufficient assurance that security controls of
                                         systems operated by contractors or others on its behalf are effectively
                                         implemented and comply with Federal and Agency guidelines.
                                    2.	 A complete inventory of systems operated on the Agency’s behalf by
                                         contractors or other entities.
                                    3.	 The inventory identifies interfaces between these systems and
                                         Agency-operated systems.
                                    4.	 The Agency requires agreements (MOUs, Interconnect Service
                                         Agreements, contracts, etc.) for interfaces between these systems and
                                         those that it owns and operates.
                                    5. The inventory, including interfaces, is updated at least annually.
                                    6.	 Systems that are owned or operated by contractors or entities are subject
                                         to and generally meet NIST’s and OMB’s FISMA requirements.
                                b. The Agency has established and maintains a program to oversee systems
                            9       operated on its behalf by contractors or other entities. However, the Agency
                                    needs to make significant improvements as noted below.
                                c. The Agency does not have a program to oversee systems operated on its
                                    behalf by contractors or other entities.
10a.If (b) checked above,       10a(1) Policies to oversee systems operated on the Agency’s behalf by contractors
    check areas that need               or other entities are not fully developed.

    significant
                10a(2) Procedures to oversee systems operated on the Agency’s behalf by
    improvement:                        contractors or other entities are not fully developed or consistently
                                        implemented.
                            9   10a(3) The inventory of systems owned or operated by contractors or other
                                        entities is not sufficiently complete.
                                10a(4) The inventory does not identify interfaces between contractor/
                                        entity-operated systems to Agency-owned and operated systems.
                                10a(5) The inventory of contractor/entity-operated systems, including interfaces,
                                        is not updated at least annually.
                                10a(6) Systems owned or operated by contractors and entities are not subject to
                                        NIST’s and OMB’s FISMA requirements (e.g., certification and
                                        accreditation requirements).
                                10a(7) Systems owned or operated by contractors and entities do not meet NIST’s
                                        and OMB’s FISMA requirements (e.g., certification and accreditation
                                        requirements).
                                10a(8) Interface agreements (e.g., MOUs) are not properly documented,
                                        authorized, or maintained.
                                10a(9) Other.
                                Explanation for Other:

                                                                                                        Page 19
                              Treasury Inspector General for Tax Administration – 

                                 Federal Information Security Management Act 

                                          Report for Fiscal Year 2010



Comments:
10a(3): The IRS was unable to provide us with a definitive inventory of contractor managed systems and agreed
that this inventory required improvement. In May 2010, the TIGTA reported 17 that current processes were not
effective at identifying all contractors who receive IRS taxpayer data and therefore are subject to required security
reviews. The IRS agreed with our finding and has implemented an automated mechanism to identify all contractors
that have access to sensitive data. This information will be available to target sites for security reviews during the
Fiscal Year 2012 review cycle. The IRS stated it will also use this information to determine which of these meet the
definition of a contractor system. In addition, where contracts may not fall into the definition of a contract system,
the IRS is working towards developing new contract language to address security requirements and to potentially
provide these contractors with IRS-configured laptops to help enforce security policy.
11. Financial Audit          11a. For the latest Financial Audit Report issued for the Agency, please provide the date
                                  of the report and indicate whether there was a material weakness or reportable
                                  condition concerning information security.
                            Input for 11a:
                            In March 2010, the GAO reported 18 newly identified and unresolved information
                            security control weaknesses in key financial and tax processing systems continue to
                            jeopardize the confidentiality, integrity, and availability of financial and sensitive
                            taxpayer information. Until these control weaknesses and program deficiencies are
                            corrected, the IRS remains unnecessarily vulnerable to insider threats related to the
                            unauthorized access to and disclosure, modification, or destruction of financial and
                            taxpayer information, as well as the disruption of system operations and services. The
                            new and unresolved weaknesses and deficiencies at the IRS were the basis for the
                            GAO’s determination that the IRS had a material weakness in internal controls over
                            financial reporting related to information security in Fiscal Year 2009.




17
   Taxpayer Data Used at Contractor Facilities May Be at Risk for Unauthorized Access or Disclosure (Reference

Number 2010-20-051, dated May 18, 2010). 

18
   INFORMATION SECURITY: IRS Needs to Continue to Address Significant Weaknesses (GAO-10-355, dated March 2010). 


                                                                                                            Page 20
                     Treasury Inspector General for Tax Administration – 

                        Federal Information Security Management Act 

                                 Report for Fiscal Year 2010



                                                                             Appendix II

Treasury Inspector General for Tax Administration 

 Information Technology Security Reports Issued 

        During the 2010 Evaluation Period 


1.	 Computer System Access Controls Over Contractors Need to Be Improved (Reference 

    Number 2009-20-108, dated July 24, 2009).

2.	 Customer Account Data Engine Release 4 Includes Most Planned Capabilities and 

    Security Requirements for Processing Individual Tax Account Information (Reference 

    Number 2009-20-100, dated August 28, 2009).

3.	 Significant Improvements Have Been Made to Protect Sensitive Data on Laptop 

    Computers and Other Portable Electronic Media Devices (Reference 

    Number 2009-20-120, dated August 31, 2009).

4.	 Progress Has Been Made, but Additional Steps Are Needed to Ensure Taxpayer Accounts
    Are Monitored to Detect Unauthorized Employee Accesses (Reference
    Number 2009-20-119, dated September 9, 2009).
5.	 While Effective Actions Have Been Taken to Address Previously Reported Weaknesses in
    the Protection of Federal Tax Information at State Government Agencies, Additional
    Improvements Are Needed (Reference Number 2010-20-003, dated November 10, 2009).
6.	 Additional Security Controls Are Needed to Protect the Automated Collection System 

    (Reference Number 2010-20-028, dated March 30, 2010). 

7.	 Additional Security Is Needed for Access to the Registered User Portal (Reference 

    Number 2010-20-027, dated March 31, 2010).

8.	 Taxpayer Data Used at Contractor Facilities May Be at Risk for Unauthorized Access or
    Disclosure (Reference Number 2010-20-051, dated May 18, 2010).
9.	 Modernized e-File Will Enhance Processing of Electronically Filed Individual Tax 

    Returns, but System Development and Security Need Improvement (Reference 

    Number 2010-20-041, dated May 26, 2010).

10. Implementation of General Support System Security Controls Needs Improvement to 

    Protect Taxpayer Data (Reference Number 2010-20-063, dated June 7, 2010).





                                                                                     Page 21
                        Treasury Inspector General for Tax Administration – 

                           Federal Information Security Management Act 

                                    Report for Fiscal Year 2010



                                                                             Appendix III

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Joan Bonomi, Senior Auditor
Richard Borst, Senior Auditor
Bret Hunter, Senior Auditor
Louis Lee, Senior Auditor
Larry Reimer, Senior Auditor
Frank O’Connor, Auditor
Victor Taylor, Auditor




                                                                                     Page 22
                       Treasury Inspector General for Tax Administration – 

                          Federal Information Security Management Act 

                                   Report for Fiscal Year 2010



                                                                  Appendix IV

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Liaison: Chief Technology Officer OS:CTO




                                                                         Page 23
